<html>
<title> - RAIL MODERNIZATION: GETTING TRANSIT BACK ON TRACK</title>
<body><pre>[Senate Hearing 111-340]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-340
 
           RAIL MODERNIZATION: GETTING TRANSIT BACK ON TRACK

=======================================================================


                                HEARING

                               before the

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING THE INVESTMENT THAT IS NEEDED TO KEEP OUR EXISTING TRANSIT 
                            SYSTEMS THRIVING

                               __________

                             AUGUST 4, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-646                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

           DAVID VITTER, Louisiana, Ranking Republican Member

TIM JOHNSON, South Dakota            KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         MIKE JOHANNS, Nebraska
DANIEL K. AKAKA, Hawaii              MIKE CRAPO, Idaho
SHERROD BROWN, Ohio                  MEL MARTINEZ, Florida
JOHN TESTER, Montana                 JIM DeMINT, South Carolina
HERB KOHL, Wisconsin
MARK R. WARNER, Virginia
JEFF MERKLEY, Oregon

                Michael Passante, Transit Staff Director

               Harold J. Connolly, Housing Staff Director

              Travis M. Johnson, Republican Staff Director

                    Amit Bose, Legislative Assistant

                  Mitch Warren, Senior Policy Advisor

                   Shannon Hines, Republican Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        TUESDAY, AUGUST 4, 2009

                                                                   Page

Opening statement of Chairman Menendez...........................     1

Opening statements, comments, or prepared statements of:
    Senator Akaka................................................     3

                               WITNESSES

Peter M. Rogoff, Administrator, Federal Transit Administration, 
  Department of Transportation...................................     3
    Prepared statement...........................................    25
    Responses to written questions of:
        Chairman Menendez........................................    44
Carole L. Brown, Chairman, Chicago Transit Authority.............    11
    Prepared statement...........................................    29
    Responses to written questions of:
        Chairman Menendez........................................    45
John B. Catoe, Jr., General Manager, Washington Metropolitan Area 
  Transit Authority..............................................    12
    Prepared statement...........................................    33
    Responses to written questions of:
        Chairman Menendez........................................    47
Richard R. Sarles, Executive Director, New Jersey Transit........    14
    Prepared statement...........................................    36
    Responses to written questions of:
        Chairman Menendez........................................    48
Beverly A. Scott, Ph.D., General Manager and Chief Executive 
  Officer, Metropolitan Atlanta Rapid Transit Authority..........    16
    Prepared statement...........................................    39
    Responses to written questions of:
        Chairman Menendez........................................    49

              Additional Material Supplied for the Record

Letter from Thomas M. Blalock, President, San Francisco Bay Area 
  Rapid Transit..................................................    52

                                 (iii)


           RAIL MODERNIZATION: GETTING TRANSIT BACK ON TRACK

                              ----------                              


                        TUESDAY, AUGUST 4, 2009

                                       U.S. Senate,
    Subcommittee on Housing, Transportation, and Community 
                                               Development,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee convened at 2:30 p.m., in room SD-538, 
Dirksen Senate Office Building, Senator Robert Menendez 
(Chairman of the Subcommittee) presiding.

         OPENING STATEMENT OF CHAIRMAN ROBERT MENENDEZ

    Chairman Menendez. Good afternoon. This hearing will now be 
in order.
    Let me say that we take very seriously our responsibility 
on this Subcommittee over the jurisdiction that we have over 
transit issues because certainly in my home State of New 
Jersey, I believe that we are a transit leader. New Jersey 
invests 40 percent of our transportation capital in transit, 
and as a result, we are the only State where 10 percent of 
workers who commute by transit.
    I have worked hard this Congress to show how increased 
Federal investment in transit could result in the continued 
expansion of public transportation options and in turn 
facilitate economic growth, create jobs, improve energy 
security, lower greenhouse gas emissions, anchor more 
sustainable communities, and alleviate traffic.
    But today, I want us to look at the investment that is 
needed to keep our existing transit systems thriving.
    In April, the Federal Transit Administration released a 
pretty astonishing report. It estimated that at just the seven 
largest transit agencies, there is a $50 billion backlog in 
projects needed to maintain a state of good repair. To address 
this backlog over 12 years, the same report estimated that 
spending on these needs would have to almost double, from $5.4 
billion that was spent in 2006 to over $10 billion per year. In 
short, the report says that if we do not increase our 
investment in upgrading and maintaining transit systems soon, 
we will inevitably face a crisis.
    The April 2009 FTA report gave us the facts and the 
figures, but I think we can all agree that the real wake-up 
call about the condition of our Nation's transit equipment was 
the tragic events of June 22 of this year. On that day, just 
after 5 p.m., a Washington Metro train plowed into another 
train that had stopped on the same track. Nine people, 
including a train operator, were killed and 80 were injured.
    Our thoughts and prayers are with all of those affected by 
this terrible accident, and one of the most important things 
we, the Federal Government, can do to honor the memories of 
those who died in this tragedy is to provide agencies the 
resources needed to keep this from happening again. The 
investigation of the cause of the crash is ongoing, but one of 
the factors the National Transportation Safety Board is looking 
at closely is the computerized signal and operation system and 
other aging equipment.
    Going forward, we need to make sure this tragedy is not 
repeated. I want to be clear that I believe that the Washington 
Metro system is safe and that WMATA, working with the National 
Transportation Safety Board, will learn from this tragedy and 
make sure it is not repeated.
    But as a Federal Government, we need to ensure that we are 
adequately monitoring and providing resources to keep these 
systems running efficiently and safely. We will hear testimony 
from the FTA and from transit agencies around the Nation about 
how we can do better, but there are a few areas I hope I can 
get each of you to touch upon.
    It is clear that we need more funding for the Rail 
Modernization Program. I believe the Committee needs to 
consider whether we need a temporary funding regime to get 
through the, quote, ``state-of-good-repair'' backlog and 
perhaps even explore emergency spending authority as situations 
arise that are particularly urgent or acute. I would like to 
hear your ideas about funding needs and about how best to 
structure those investments.
    In addition to the additional funding that may be needed, I 
think the FTA should work with agencies to more effectively use 
the resources they already have. To that end, I believe the FTA 
should develop a program to provide technical assistance to 
help these agencies manage and maintain their assets.
    I also know there is a lot of interest in and quite 
differing views on whether and how to modify the existing Fixed 
Guideway Modernization Fund formula. I don't want this hearing 
to become a squabble between transit systems, but nevertheless 
I would like to have input on the topic.
    There were several agencies that wished to participate 
today but could not. I welcome them to provide their input to 
the Committee in writing on this or any other topic.
    Last, I think we need a better understanding of what the 
definition of, quote, ``state of good repair'' is so that the 
FTA and all our agencies are on the same page. We also need to 
develop a system to report the condition of transit assets. I 
do not want transit systems to be bogged down in red tape, 
having to report the condition of every nut and bolt, but it 
does appear that we need more information and transparency.
    So I look forward to hearing from all of you on our two 
panels, starting off with our distinguished Administrator of 
the Federal Transit Administration, and to think together how 
we can ensure that our Nation's fixed guideway systems continue 
to serve our communities as safely and as smoothly as possible.
    Before I turn to the Administrator, I ask my distinguished 
colleague from Hawaii, Senator Akaka, if there is any statement 
you want to make at this time.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for convening this Subcommittee hearing on Housing, 
Transportation, and Community Development and to welcome our 
witnesses.
    Mr. Chairman, an essential component of the next Surface 
Transportation Reauthorization will be increasing the 
availability of resources to repair, upgrade, and expand rail 
transit systems. Although it is important to repair and 
modernize our Nation's existing rail infrastructure, we must 
also continue to develop rail in areas without existing systems 
to improve the mobility of residents and promote smarter 
growth.
    The City and County of Honolulu continues to develop its 
rail system. The local contribution toward the project will 
likely be 70 percent of the project costs, but it will still 
need significant Federal support.
    I thank our witnesses for appearing today and look forward 
to working with the Members of the Committee and the 
Administration to increase the resources available for transit.
    Again, Mr. Chairman, thank you for conducting this hearing.
    Chairman Menendez. Thank you, Senator Akaka.
    We will start with our first panel. We are going to have 
two panels. Our first is our distinguished Administrator of the 
Federal Transit Administration, Peter Rogoff. This is his first 
appearance before the Subcommittee, and I have to say it has 
been a pleasure to work with an Administrator who understands 
the Senate as well as the national transportation issues so 
well, so we look forward to a long-term relationship and 
particularly your thoughts today on the critical issue of what 
is at the heart of transit's ability to operate in the 21st 
century.
    So with that, Mr. Administrator, the floor is yours.

          STATEMENT OF PETER M. ROGOFF, ADMINISTRATOR,
  FEDERAL TRANSIT ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Rogoff. Thank you, Mr. Chairman and Senator Akaka. Let 
me say, it is quite warm to return to the Senate and be among 
old friends again and we are very pleased to have the 
opportunity to discuss the state of good repair of our Nation's 
public transportation systems today.
    In the interest of both the safety and the reliability of 
our public transportation systems, it is imperative that we 
aggressively address and stay on top of their aging condition. 
Deferred maintenance items, if deferred long enough or left 
undetected, can and do become critical safety risks. As such, 
the issue of the condition of our transit infrastructure and 
the safety of our transit systems are inextricably linked.
    The FTA's role in the safety oversight of these systems is 
extremely limited as a matter of Federal law. We are 
statutorily prohibited from establishing national safety 
standards for a large segment of the Nation's rail transit 
systems or any of the Nation's bus transit systems. The new 
Administration finds this status quo to be unacceptable and we 
expect to propose reforms.
    Secretary LaHood has established a multimodal committee to 
identify alternative approaches to address what we consider a 
gap in transit safety oversight. We look forward to proposing 
reforms to Congress soon. But even with our limited safety 
authority, please know that the FTA continues to regularly 
assess the condition of transit infrastructure and disseminate 
and encourage best practices by the industry.
    As we address this issue of the state of good repair and 
the related issue of safety, it is essential that we regularly 
remind ourselves that rail transit remains an extraordinarily 
safe way to travel, far safer than traveling on our highways. 
Two of the transit agencies you will hear from on the next 
panel, CTA and WMATA, have endured 14 and 13 onboard 
fatalities, respectively, in the last 33 years. While each of 
those fatalities represents a tragedy, the fact is that highway 
accidents in the metropolitan areas of Washington and Chicago 
claim at least that many lives every month.
    Despite the overall safe record of the industry, the NTSB 
has been called in to investigate several transit-related 
accidents in the recent past. The NTSB investigated a Chicago 
Transit Authority derailment on the Blue Line back in July of 
2006. That accident resulted from the failure of a track 
structure and resulted in 152 fatalities--excuse me, 152 
injuries. This lag screw served as one of thousands holding CTA 
rails to ties in the area of the Blue Line derailment. As you 
can see, it is corroded and deformed. At the time of the 
accident, you could pull screws like this right out of the rail 
with your bare hand. This equipment dated back to the original 
installation of the Blue Line in 1951 and was never replaced 
until after the accident.
    Importantly, the NTSB report on this accident stated that 
the derailment should serve, quote, ``as a wake-up call to all 
transit agencies with equipment and infrastructure that ages 
with each passing day.'' The NTSB finding speaks to the very 
core of our challenge. The infrastructure is aging with each 
passing day. But in fostering safety and maintaining a state of 
good repair, we can't limit our focus just to the age of 
transit systems or to the age of any single piece of equipment.
    As heavy rail agencies go, the Washington Metro System is a 
very young agency. Many of our new rail systems are using newer 
technologies for which we do not yet have a lot of experience 
in the field. This is especially true in some of the newer 
light-rail deployments. Indeed, Washington Metro some years ago 
was required to pull out and replace track signaling equipment 
well before the end of its expected service life.
    So for some systems, the biggest risk factor may be a 56-
year old lag screw like this one. But for other systems, the 
biggest safety risk could be in the programming of a circuit 
board that may only be 1 or 2 years old.
    For these reasons, to ensure safety and a state of good 
repair, we must take a comprehensive safety management approach 
that identifies, analyzes, and controls all potential risks. We 
must have systems which demand continuous improvement, where 
all employees from the CEO to the wayside worker are held 
accountable for safety.
    There is also a vital human factor to safety that cannot be 
ignored. If important maintenance and renewal are deferred, it 
sends a very negative message to employees who must work in 
those deteriorating conditions. Employees that report critical 
maintenance needs and see little or no response by management 
may start to wonder whether they should continue to report 
those problems.
    Importantly, our transit systems are busier than they ever 
have been before. We registered a record 10.3 billion transit 
trips in the United States last year. Our transit agencies are 
working their equipment long and hard to keep up with demand, 
and that pace of activity takes a toll both on people and 
equipment.
    All of these factors point to the need for each and every 
transit agency to have a systemic safety and asset management 
program in place. They also point up the need for adequate and 
reliable funding from all levels of government.
    Marginal or poor transit infrastructure conditions persist 
despite FTA's increasing financial support through the Fixed 
Guideway or ``Rail Mod'' Program, as it is known, as well as 
increasing support through the Urbanized Area Formula Grant 
Program.
    At the local level, we find that the systems that are 
adequately financed are those with a dedicated local funding 
source that provides a predictable revenue stream, a revenue 
stream that allows for long-term capital investment 
commitments. So, for example, New Jersey Transit has benefited 
from substantial investment from New Jersey's own 
Transportation Trust Fund. Other agencies are authorized to 
draw a designated amount from a sales tax or a property tax or 
other taxes. Other agencies, like WMATA, have no dedicated 
funding source.
    The solution to better and sustained transit infrastructure 
investment is not going to be found solely at the Federal, 
State, or local level. The key will be to make it a priority at 
all levels and to insist that industry make their investments 
in a way that addresses their most critical safety 
vulnerabilities first.
    To foster this concept, FTA has made state of good repair 
an agency priority. As you pointed out, Mr. Chairman, in April 
2009, we published a State of Good Repair Study. That study was 
reported by Senator Durbin and other Members of this Committee, 
including yourself and the then junior Senator of Illinois, 
Senator Obama. That study assessed the level of capital 
investment required to attain and maintain a state of good 
repair for the Nation's seven largest rail systems, and as you 
pointed out, those rail systems carry 80 percent of the 
Nation's rail transit ridership and revealed an unmet 
recapitalization need of some $50 billion.
    In order to assist agencies in correcting this backlog, FTA 
is developing a Transit Asset Management Training Course and 
conducting a review of U.S. and international agency asset 
management practices. At Secretary LaHood's direction, we are 
also expanding on this study. We are going to take in a broader 
universe of transit agencies. We are going to look not just at 
the same definition of state of good repair, but we are also 
going to try to solve what is one of the more vexing problems, 
and that is to identify that portion of deferred maintenance 
that is truly safety critical. We will be working with industry 
on trying to better define what safety critical infrastructure 
composes.
    With that, I want to thank you for the opportunity to 
testify and I am happy to take any questions you may have.
    Chairman Menendez. Thank you, Mr. Administrator.
    Let me ask you, you spoke in your testimony about how 
commuter rail systems are regulated by the Federal Railroad 
Administration while other systems, like light rail systems, 
are overseen by State safety oversight agencies. Should the 
safety of all rail be under the Federal Railroad 
Administration? Should we enhance FTA powers? Should we keep 
the structure the same? What are your views on it?
    Mr. Rogoff. Mr. Chairman, Secretary LaHood has formed this 
committee to get to the heart of just that, and what I tell you 
at this point, the Secretary not having signed off on any 
recommendations--we just gave him an update of our work the 
other day--what is more important than whether the FTA does it 
or whether the FRA does it is that someone does it who has the 
teeth and the authority and the funding and the personnel to 
really compel the attention of the transit agencies, and that 
really is the concern that we have with the current system with 
SSOs.
    We have got, I think, a total of 28 of them. The average 
FTE strength, the average personnel strength of these agencies 
is 1.1 FTE per agency, per year. These are largely----
    Chairman Menendez. FTE meaning full-time employee?
    Mr. Rogoff. Yes. Basically, slightly more than one person. 
Now, if you take California out of the mix, which has a 12-
person agency, you actually have less than one person, on 
average, for the remaining agencies, and what that tells us is 
this is really being treated as a collateral duty within State 
Departments of Transportation, where many of the State 
departments have stood up the bare minimum in order to comply 
with the Federal regulation that an SSO exist.
    When I testified on this issue in the House, I testified 
next to a representative of the SSOs and they, too, were 
testifying on behalf of additional authority so they could 
have--I think the only other way to describe it is some teeth 
in order to compel the attention of the agencies they oversee.
    We also have a concern about the independence of some of 
these organizations. Some of them rely for their funding on the 
very transit systems that they regulate. This is not a 
situation that we allow really in any other area of 
transportation safety enforcement at the Federal level.
    Chairman Menendez. When do you expect the Secretary to 
issue a report?
    Mr. Rogoff. We are going to be working through August on 
this. We hope to get it out as early in the fall as possible. 
We have had several meetings already and we will be having an 
updated meeting with stakeholders and others shortly.
    Chairman Menendez. We will look forward to hearing from you 
as soon as possible.
    I have got a poster here that one Washington Post 
cartoonist thinks it might be a good idea to create a, instead 
of a ``cash for clunkers,'' a ``cash for rail cars.'' I don't 
know if that is a good idea or not, but I do wonder, even in 
the Recovery Act where we put $750 million, which was a nice 
movement forward in rail modernization, but it really, when you 
are looking at $50 billion, doesn't make much of a dent.
    How do you--what is your view as to how we meet some of 
these very significant needs? I mean, we are talking about we 
want to move people increasingly to transit. We learned with 
the spike in gas prices the consequences of not doing so, and 
Americans increasingly move at some of the greatest ridership 
levels that we have seen in quite some time, and they have 
stayed there because most of these systems are efficient, they 
are effective, and increasingly, we want to make them safer, 
and safety is an incredible part of what we need to promote at 
the end of the day.
    But as we drive people to these systems that we want them 
to participate in, to get off the roads, to have a high-speed, 
nonpolluting system that ultimately gets them to their 
opportunities for work or entertainment or even go to a 
doctor's visit, whatever, at the end of the day, we can't 
guarantee that we will have the type of systems that we want to 
attract that ridership and to do all of the positive things 
that flow from that if we are looking at $50 billion in costs 
that your agency has documented.
    So what is your sense of this? Should we have a large 
temporary program to deal with the backlog? Should we increase 
funding for existing programs? And finally, as part of that 
answer, if you can talk to me about--I have heard two basic 
arguments about how to reform rail modernization funding. Some 
argue that the only sensible way to divide the funding is by 
need. Others argue that that gives a perverse incentive for 
local agencies and instead agencies should be rewarded for 
performing well on maintenance. Are either of those strategies 
workable or should we be funding based on objective criteria 
like the age and size of the system?
    So how do we meet the challenge that we have of $50 billion 
of your agency's own determination of work to be done, how do 
we go about that, and then what is the policy decisions to be 
made about, as we meet the financial challenge, how does that 
get disbursed?
    Mr. Rogoff. Well, Mr. Chairman, I think you spoke to one of 
the solutions in your opening statement. Are more resources 
needed from all levels of government? I think so. We also need 
to get agencies to do a much better job of targeting those 
investments on their most vulnerable assets, and there are two 
elements to that.
    I talked in my opening statement about safety critical 
assets, but I think it is important to point out that certain 
assets that we don't view as safety critical actually have a 
very real impact on transit ridership and the reliability of 
transit service.
    So, for example, crowded platforms, disabled air 
conditioners, escalators that are inoperable, those might not 
be viewed as safety critical, but they can move people out of 
the transit service and back onto the highways. And actually, 
when you move people from transit back to highways, you have 
degraded safety because you are about, based on the recent 
numbers, about 45 times more likely to die from an accident on 
a per passenger mile basis on the highways than in transit. So 
I think it becomes a safety critical issue.
    Now, on the overall issue of what kind of program should be 
stood up, I would make the following observations. First, I 
think you want to do a link with additional funding to better 
asset management. That is not to say that the best definition 
is going to come from within the beltway of Washington, DC. 
This is something that we have been working with our grantees 
on for some time and plan to continue to work on them, both 
through roundtables and a dialogue.
    There is a very diverse universe of practices out there 
among the transit agencies on how best to attack their 
deferred--not only to identify what their most critical 
deferred maintenance is, but also to address it.
    I think as it relates to the formula, I would just make 
this observation. It is always delicate when an Administration 
official tries to opine on a formula, but I would say that the 
current formula is clearly a bit of a hodgepodge. It is hard to 
divine precisely what the strategic goal of it is because you 
have seven different tiers of funding, seven different 
distributions when different agencies come into eligibility at 
different levels of funding.
    I think you do sort of want to define what the goal is and 
then build a formula around it, and I think importantly, as 
part of that goal, you talked about perverse incentives. You do 
want to do something about a mandated level of effort on the 
part of the State and local government because we clearly have 
examples of certain agencies who fell into more dramatic 
disrepair due to the absence of attention on the part of State 
and local government. If you merely take a snapshot of who is 
in the worst shape now, you do run the risk of not 
appropriately rewarding State and local governments who did the 
right thing.
    Chairman Menendez. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Again, welcome, Administrator Rogoff. I know you are quite 
familiar with the Honolulu Rapid Transit Project----
    Mr. Rogoff. Yes, sir.
    Senator Akaka. ----and let me say that the project, as you 
know, completed its FTA compliant alternative analysis study 
more than 2\1/2\ years ago. It has been awaiting approval from 
FTA to enter preliminary engineering since then. And in the 
meantime, the City and County of Honolulu has been collecting 
dedicated local tax revenues amounting to more than $300 
million to fund its overmatch share of the project.
    Before your arrival there, Honolulu's somewhat protracted 
process of getting to PE seems to be similar to challenges that 
other cities have faced. Recognizing that the Administration 
will have recommendations for statutory changes as a part of 
reauthorization, and this is my question, are there other 
actions, other actions that you can take in the short term that 
do not require legislation that could help expedite the FTA 
project approval process?
    Mr. Rogoff. Yes, sir, there are, and we have just begun to 
take some and we look forward to taking more. There really are 
three universes of--three discrete universes of changes. One is 
just a change to agency guidance. We just published in the 
Federal Reserve last week a series of changes that are oriented 
toward eliminating paperwork burdens that, frankly, haven't 
been necessarily impactful to the process and we hope to do 
more.
    Regulatory changes are something that we are working up 
currently, but will take more time. But some of these involve 
eliminating steps in the process that are either duplicative or 
not necessary and don't necessarily influence the final 
outcome--the final decision by the agency on whether to 
participate or not.
    So, for example, and I am not saying that we have endorsed 
or not any of these proposals, but among the things being 
talked about is there is, you pointed out, the alternatives 
analysis that Honolulu went through. There is an alternative 
analysis process for the Federal Transit Administration and 
there is a whole separate alternatives analysis process for 
compliance with NEPA and we are thinking long and hard about 
why we really need to have both and whether we could eliminate 
a step right there.
    We are also looking at areas where, especially for more 
experienced transit agencies that might not need as much 
technical assistance from the agency in the early stages, 
perhaps they come in for a funding determination by presenting 
a whole package later in the process rather than having to go 
through the AA, PE, final design, grant approval process.
    So these are all things that we are looking at. This is 
another area where we hope to come forward with something in 
the near term. There are many other elements of the 
Administration that are going to have to opine on our ideas as 
we bring them forward and obviously the overall level of 
resources for the program will matter to how many projects we 
can bring into the system.
    Senator Akaka. Thank you for that.
    With respect to the Administration's proposed 18-month 
extension of existing highway and transit programs, can you 
explain how that 18-month extension might impact projects 
seeking the execution of the full funding grant agreement 
during the 18-month extension period? Also, will the FTA have 
sufficient funding authority during that 18-month period to 
enter into full funding grant agreements with those projects 
that will be ready to begin construction during that period?
    Mr. Rogoff. Well, the issue of what we commonly refer to as 
contingent commitment authority will depend on the duration of 
the reauthorization. At present, the amount of contingent 
commitment authority we get is dictated by a 3-year snapshot of 
resources from the program. I understand that there is 
legislation being considered in the Senate that might expand 
that to 5 years. But importantly, the wider the snapshot, the 
more resources we have.
    One of the reasons why we did put forward an 18-month 
reauthorization package was to try to provide some stability to 
the program, not just for transit new starts, but for transit 
formula funding so that transit agencies know what they should 
be expected to receive, and for that matter, on the highway 
side, what our highway agencies should know what they should 
receive. So we will obviously use the authority we have.
    The short answer to your question is, no, there would be 
some that would be potentially ready to go to construction that 
if we received no additional contingent commitment authority 
could be slowed down.
    Senator Akaka. Thank you. Thank you very much. My time has 
expired, Mr. Chairman.
    Chairman Menendez. Thank you, Senator Akaka.
    Let me ask you one last question, and then we will let you 
go. Is there a well-accepted definition of what is a ``good 
state of repair''? Are the FTA and the transit agencies on the 
same page on this point?
    Mr. Rogoff. I do think it is a matter of the FTA being on a 
different page than the transit agencies. I think there are 
probably somewhere between 8 to 12 different pages out there. 
But even the major transit agencies do not necessarily seek to 
capture the same definition. Some focus just on the age of 
assets. Some focus on the age and recapitalization of those 
assets. Some have a more robust effort to try and capture what 
their backlog is. Some seek to try and get to a state where 
they show no backlog. Some recognize that they will always have 
a backlog and it should be at a certain time period, a certain 
number of years that they can ensure it.
    So we have been working with our transit agency partners to 
try and coalesce around a single definition. Sometimes those 
definitions are driven a little bit about the resource envelope 
that the agency has to work with. So I think there is room for 
improvement and plenty of opportunity for more dialogue to try 
to coalesce around a single definition, especially when you 
start thinking about basing either Federal formulas or Federal 
mandates around it.
    Chairman Menendez. Well, maybe we can find a way to 
incentivize that.
    Mr. Rogoff. Yes, well, like I said, we have had continual 
meetings. We just had a state-of-good-repair roundtable with a 
bunch of agencies that was hosted by Mr. Catoe at WMATA and the 
FTA just a few weeks ago, and that was not a single event. We 
are going to continue to have that dialogue going forward.
    Chairman Menendez. Well, thank you very much. Seeing no 
other Members before the Committee, Mr. Administrator, I look 
forward to hearing from you again.
    Mr. Rogoff. Thank you.
    Chairman Menendez. Thank you very much for your service.
    With that, let me call up the second panel. It is a very 
outstanding group of some of the Nation's leading local transit 
agencies, and as I call you up, if you would start coming up, 
please, I would appreciate it:
    Carole Brown, who is the Chairwoman of the Chicago Transit 
Authority. Ms. Brown represents one of the oldest and most 
active agencies in the country. Her private sector experience 
has proved helpful as the Chicago Transit Authority meets its 
escalating challenges, and we look forward to learning about 
CTA's unique needs and how it is utilizing existing funding.
    John Catoe, who is the General Manager of the Washington 
Metropolitan Area Transit Authority, a system that uniquely 
serves the Federal Government and has recently suffered some 
tragedy. The Subcommittee appreciates you taking time to appear 
before us during these challenging times at WMATA, and we are 
looking forward to your testimony, as well as please accept the 
Subcommittee's condolences for the tragedy that happened in 
June and our willingness to work constructively with you to 
help moving forward.
    Richard Sarles, the Executive Director of New Jersey 
Transit, has a compelling story to tell about its success and 
the state-of-good-repair efforts, and I think my home State 
system has lessons to share, and we look forward to hearing 
those.
    And Dr. Beverly Scott, who is the General Manager and Chief 
Executive Officer of the Metropolitan Atlanta Rapid Transit 
Authority, MARTA, and Chair of the American Public 
Transportation Association. You have two hats here, Dr. Scott. 
So she will bring in the perspective of an agency that was not 
in the April 2009 FTA Rail Modernization Study but has 
substantial needs, and we readily recognize that the national 
rail modernization needs exceed those that are stated in the 
study. And she will also be able to give us some thoughts as 
the Chair of the American Public Transportation Association.
    I wanted to get you all up. We are going to shortly be 
having votes, so we will move along as far as we can and recess 
when we are compelled to go the floor and have three votes, 
which will mean that when we recess, we are going to be about a 
half-hour in recess as we do those three votes. But I would ask 
you to try to limit your testimony to 5 minutes so we can get 
to questions. Your full statements will be included in the 
record, and with that, Ms. Brown, why don't we start with you? 
If you would just put that microphone on.

    STATEMENT OF CAROLE L. BROWN, CHAIRMAN, CHICAGO TRANSIT 
                           AUTHORITY

    Ms. Brown. Thank you, Chairman Menendez and thank you for 
the opportunity to testify today and talk about the needs of 
Chicago's transit system.
    As you stated, my name is Carole Brown, and I am the 
Chairman of the Board of the Chicago Transit Authority. We are 
the second largest transit agency in the country. We carry 
nearly 1.7 million rides a day on 242 miles of track and 154 
bus routes throughout Chicago and Cook County, and we are the 
primary transit agency in northeastern Illinois. We carry 80 
percent of the transit riders in the region, and we operate the 
``L,'' which is the elevated train system that has become an 
iconic symbol of Chicago.
    Sadly, that iconic symbol is aging and in poor health, as 
is our bus fleet and our subway system. Our oldest elevated 
rail, the North Mainline, was built between 1899 and 1900; our 
oldest subway, the State Street Red Line, was built during 
World War II; and our oldest rail car still in operation dates 
to 1969. It has 1.7 million miles on it; and our oldest bus 
garage was built in 1907.
    We have a $6.8 billion, 5-year unfunded state-of-good-
repair need. This is in addition to our current fully funded 5-
year, $3 billion capital plan, and it does not include 
expansion projects that total over $4 billion. The $6.8 billion 
is the shortfall needed in order to bring our system to a state 
of good repair.
    Our largest maintenance need is about $4 billion, and it is 
in the category of ``Rail Mod,'' which has been discussed 
today. That includes rail stations, basic rail structures, 
track work, power substations, contact rails, and cables.
    We need $1.2 billion to repair and replace our rail fleet 
that travels 225,000 miles per day. We use 1,200 rail cars to 
operate our system; 28 percent of our fleet is over 32 years 
old. The FTA standard for useful life is 25 years. Our rail 
fleet's average age is 24 years. So we need to replace that 
system, and with $1.2 billion, we could replace two-thirds of 
our aging fleet.
    So we are very thankful for Federal rail modernization and 
other formula funds that we receive. We have borrowed against 
those funds in the past 2 years to reduce our 15-minute-per-
mile slow zones on our Blue Line to just 7 percent. We 
completed this repair work in 2008, just as ridership on our 
system had increased by 5 percent, due in part to a sudden 
spike in gas prices. At the same time, as was seen through the 
rest of the country, vehicle miles traveled on the region's 
roads have declined. The good news is that even after gas 
prices were cut in half this fall, those people who had 
switched from driving to transit on our system continued to 
ride the trains and buses rather than return to driving. Had we 
not fixed the slow zones when we did, those people new to 
transit would have become frustrated with slow, inefficient, 
and unreliable service and quickly returned to commuting in 
their cars.
    The whole point of my being here is to stress the 
importance of maintaining our Nation's transit systems. Like my 
counterparts, I believe that a healthy transit system helps to 
alleviate congestion on the Nation's roads, and a sustained 
investment in transit is critical to our Nation's well-being.
    That is why I am so pleased that 12 members of the Senate, 
including you, Chairman Menendez, and Senators Bayh, Dodd, and 
Schumer, asked for the FTA report on the Nation's rail 
modernization needs.
    The CTA share of the state-of-good-repair need highlighted 
in this report is over $4 billion, which in real terms means 
that the CTA rail track and rail cars have grown past their 
useful life, thereby leading to an increase in rail slow zones 
to ensure safety on the rail system.
    So we are in dire need of modernization. Your leadership in 
addressing this issue for Chicago and many of the other older-
rail cities would go a long way to fix this problem. The FTA 
report provides a blueprint for modernizing the Nation's fixed 
guideway systems by simplifying the Fixed Guideway 
Modernization Program so that funds are allocated based on age, 
type of rail system, and maintenance needs of a transit system.
    Realignment of the program will likely lead to an increase 
in funds for true fixed guideway agencies such as CTA, like New 
Jersey Transit, like WMATA, and like MTA. So I thank you for 
your leadership on this issue, and I ask the Members of your 
Committee to consider the FTA recommendations as you deliberate 
the transportation authorization bill in the coming months.
    With that, I thank you again for the opportunity to 
testify, and I would like to answer any questions that you 
might have.
    Chairman Menendez. Thank you very much.
    Mr. Catoe.

 STATEMENT OF JOHN B. CATOE, JR., GENERAL MANAGER, WASHINGTON 
              METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. Catoe. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify before you today. Also, I would like to 
thank you for your leadership on transit issues, especially in 
regards to legislation dealing with the leaseback arrangements 
and climate change.
    Sometimes we are called ``America's transit system'' or 
``America's subway.'' Metro is the largest public transit 
provider in the National Capital Region, and nationally we are 
the second largest subway system and the sixth largest bus 
system in the United States. We serve 1.3 million customers per 
day, and we provide trips to hundreds of millions of riders 
each year, those who reside within the Washington Metropolitan 
Area as well as visitors from all over the United States and 
from across the world.
    But Metro is now beginning to feel its age. To use a 
comparison that any house owner would understand or relate to, 
our crowded house is now 33 years old, and our needs go far 
beyond a spring cleaning and a fresh coat of paint. We have a 
wet basement, rusty pipes, cracked tiles, old electrical 
wiring, and the equivalent of a 1976 model car in a 100-year-
old garage. In fact, our capital needs over the next 10 years 
total more than $11.4 billion.
    These needs include replacing our oldest rail cars, 
including those that were involved in the tragic accident on 
June 22nd. We need monies to replace the leaking tunnels and 
crumbling platforms, upgrading our tracks and associated 
infrastructure, to fix escalators and elevators, and to replace 
about 100 buses each year. Replacing very old bus facilities is 
also a need, especially one that is over 100 years old. And we 
need to update critical software. We also need power and 
control system upgrades and additional rail cars to run longer 
trains and to reduce overcrowding.
    As you stated in your comments, Mr. Chairman, Metro 
experienced a tragic accident on June 22nd, when two Red Line 
cars collided outside of our Fort Totten metrorail station. I 
and all Metro employees are terribly saddened by the loss of 
life and the injuries that occurred on that day. While the 
National Transportation Safety Board has not yet determined the 
root cause of this accident, it has refocused attention on the 
state of rail infrastructure around the country.
    There is clearly ample demand from many transit systems for 
additional Federal support to sustain the safety and 
reliability of their systems. The work that we have done to 
keep transit systems in a state of good repair might not be 
exciting at times to hear about, but without it, service and 
safety will suffer. There will be more delays due to failing 
infrastructure, and that means lost time for our customers and 
lost productivity for our region and the Nation. The funding 
provided by the Federal Government is critical to our ability 
to keep our systems running safely and reliably. If we do not 
receive sufficient funding now, service as well as safety will 
decline.
    I want to raise one additional issue before I conclude. As 
more people are riding public transit, Metro is already 
reaching capacity on many parts of our system. As I have stated 
on several occasions, what this region and what this Nation 
witnessed on Inauguration Day, January 20th, where 1.5 million 
people crowded into our system, will become a daily event in 
the very near future. We need to make investments to expand the 
capacity of the system to accommodate the ridership growth, 
such as purchasing additional rail cars and making the upgrades 
in power and maintenance facilities to accommodate them.
    As the Subcommittee considers ways to meet the 
infrastructure needs of transit systems, I encourage you to 
develop a source of funding at the Federal level for projects 
to expand capacity on existing systems so that we may meet 
future ridership demands.
    In conclusion, I appreciate the Subcommittee's interest in 
the state of America's heavy rail infrastructure. We at Metro 
are committed to doing whatever it takes to ensure that our 
system is as safe as it can be and to provide the best possible 
service now and into the future.
    Thank you.
    Chairman Menendez. Thank you very much.
    Mr. Sarles.

STATEMENT OF RICHARD R. SARLES, EXECUTIVE DIRECTOR, NEW JERSEY 
                            TRANSIT

    Mr. Sarles. Chairman Menendez, New Jersey Transit is the 
Nation's largest statewide public transportation system 
providing nearly 900,000 weekday trips on 2,000 buses, three 
light rail lines, and 12 commuter rail lines. New Jersey 
Transit also operates hundreds of trains daily over the Amtrak-
owned Northeast Corridor.
    Mr. Chairman, I want to thank you for providing me the 
opportunity to testify today on the criticality of providing 
the necessary capital funding for mature public transportation 
agencies.
    As you know, the Rail Modernization program was created by 
Congress to provide funding for established transit agencies 
for the purposes of improving existing systems, including 
purchase and rehabilitation of rolling stock, track, 
structures, signals and communications, passenger stations and 
terminals, maintenance facilities, and core capacity expansion.
    In short, the Rail Modernization program was created to 
assist in bringing my agency's infrastructure and the 
infrastructure of all of the mature transit agencies across the 
country to a state of good repair.
    When it comes to state of good repair, NJ Transit is a 
success story. We inherited infrastructure and equipment from 
predecessor bus companies and railroads, such as the 
Pennsylvania and Erie Lackawanna, dating back in many cases to 
the earlier part of the 20th century.
    Unfortunately, public transportation under private 
ownership throughout much of the mid-20th century suffered from 
significant disinvestment and lack of maintenance.
    From its inception in 1979, NJ Transit focused its efforts 
on restoring equipment, facilities, and infrastructure to a 
state of good repair. It has taken three decades to bring New 
Jersey Transit to a state of good repair, and we will need to 
continue to concentrate our efforts in this regard to maintain 
our infrastructure and equipment. In fiscal year 2009 alone, we 
spent two-thirds of our capital program on state of good repair 
and capital maintenance.
    During the 1990s, New Jersey Transit also expended 
significant resources on the connectivity of the system which 
necessitated capacity expansion projects, including the Midtown 
Direct service from Montclair and the construction of the Frank 
R. Lautenberg transfer station in Secaucus. New Jersey Transit 
also embarked on the construction of two light rail systems in 
the 1990s: the Hudson-Bergen Light Rail and the Riverline.
    As those projects were being completed, we again 
reemphasized that our top investment priorities were safety, 
state of good repair, and core system capacity. That effort has 
produced very tangible results.
    New Jersey Transit is in the midst of the largest rolling 
stock upgrade program in our history, involving the purchase or 
rehabilitation of over 4,100 pieces of equipment.
    We have invested over $100 million in four critical movable 
bridges. We have replaced viaducts, opened new rail yards, 
replaced wooden ties with concrete ties, and completed a $90 
million automatic train control system upgrade.
    All of these efforts led the FTA to declare in May of this 
year that New Jersey Transit's capital program supports a state 
of good repair for the system. However, continuing this success 
will require renewal and enhancement of Federal funding. It 
also requires adequate funding to support routine maintenance 
to prevent premature degradation of equipment and 
infrastructure.
    How did we get to this point?
    It started with the bipartisan support for the formation of 
New Jersey Transit 30 years ago. Most recently, our focus on 
state of good repair was reinvigorated by Governor Corzine 
directing through the last reauthorization of our State 
Transportation Trust Fund that New Jersey Transit produce an 
annual submission of our capital investment strategy to the New 
Jersey State Legislature. That strategy promotes safety and 
state of good repair as our top priority, followed by core 
capacity improvements and, last, expansion of the reach of our 
system.
    New Jersey has consistently provided significant funding 
from its Transportation Trust Fund to New Jersey Transit for 
capital expenditures. In fact, as you noted earlier, Governor 
Corzine has allocated more than 40 percent of New Jersey's 
transportation capital funds to New Jersey Transit, and these 
funds are matched one for one by Rail Modernization funds and 
Urbanized Area funds from the Federal Government. Since 2002, 
New Jersey Transit's capital program has exceeded $1 billion.
    So where do we stand and what can Congress do to continue 
and bolster our efforts to maintain state of good repair?
    First and foremost, I urge this Committee and Congress to 
increase funding for public transportation--through both the 
Rail Modernization formula and the Urbanized Area formula. 
Costs continue to increase as aging systems expand to meet 
demand.
    I will caution that there are some things Congress should 
carefully consider.
    First, any kind of formula program that distributes money 
in such a way as to proportionately decrease funding to transit 
agencies that are in a state of good repair is problematic. I 
suggest any funding program specifically targeted to state of 
good repair should be incentive based.
    Another situation Congress should carefully consider is 
implementing any asset management system that prescribes which 
projects should advance ahead of others. It would not be 
prudent for a Federal agency to determine which bridge should 
be fixed first or which station should be replaced. Those 
decisions should be made by those closest to the infrastructure 
and equipment.
    We have made significant advances in state of good repair 
in New Jersey by making it our top priority and pushing the 
decisions on how to spend the state-of-good-repair money down 
to the engineers and maintenance staff who evaluate the 
infrastructure and equipment. I have concerns related to 
proposals that suggest all of the information about the 
infrastructure conditions of transit agencies should be 
collected on the Federal level, put into a data base, where an 
algorithm would produce a list of what should be fixed.
    I want to reiterate that state of good repair has been New 
Jersey Transit's top priority from its inception, and I 
appreciate this Committee allocating valuable time and 
resources to considering strategies for maintaining the state 
of good repair of the Nation's transit agencies.
    Thank you again.
    Chairman Menendez. Thank you.
    Dr. Scott.

STATEMENT OF BEVERLY A. SCOTT, Ph.D., GENERAL MANAGER AND CHIEF 
EXECUTIVE OFFICER, METROPOLITAN ATLANTA RAPID TRANSIT AUTHORITY

    Ms. Scott. Chairman Menendez, thank you for the opportunity 
to present testimony regarding state of good repair and rail 
transit modernization needs, and as we begin, I want to also 
thank you for your extraordinary leadership on the SILO/LILO 
issue which continues to haunt a number of transit systems, 
such as my own at MARTA.
    Just a few facts and perspectives about MARTA, our 
industry, transit rail modernization needs, and, candidly, the 
big ugly in the room--state of good repair.
    MARTA is the 9th largest transit system in the United 
States and one of a few Tier 1 transit systems designated by 
the Department of Homeland Security. We were created in the 
early 1970s, are funded locally by a 1-percent sales tax levied 
in Fulton, DeKalb Counties, and the city of Atlanta. Today, 
that 1-percent sales tax generates over $300 million, down 
significantly over the last 18-month period of time, and 
annually we invest over 50 percent of that local sales tax that 
is generated into capital.
    Every day we carry more than a half million passenger trips 
on MARTA or, as I like to say, we in effect carry more people 
in our region on 1 day than reside in the city of Atlanta.
    The public investment in MARTA has been over $6.4 billion, 
including much welcomed significant Federal participation. This 
year, we are celebrating 30 years of transit rail service in 
the Atlanta region. Our rail system includes 48 miles of double 
track, 38 stations, 338 rail cars, 104 miles of main line 
track, three rail yards, 20 miles of yard track, 146 
escalators, 109 elevators, thousands of cameras, call boxes, 
vital relay switches, just to give you a general sense of the 
magnitude of our operation.
    Today the best available but, admittedly, incomplete 
information that we have projects a state-of-good-repair 
capital budget requirement of approximately $5.2 billion over 
the next 20 years to preserve our existing system, and to date 
MARTA's share of Federal rail modernization funding is, on an 
annual basis, $37 million.
    In a nutshell, MARTA is representative of an important and 
growing segment of transit systems in our country. All like 
MARTA--WMATA, BART, Portland, Sacramento, Miami, San Diego, 
Santa Clara, just to name a few--are aging, first and just 
beginning second generation New Starts transit systems. In a 
manner of speaking, we are like the baby boomers of the transit 
industry: 20 to 35 years old, no more new kid on the block, but 
all too often just like that kid. It seems like we all just 
looked up one day and all of a sudden we were middle-aged, 
largely operating in very high-growth areas of the country like 
the Atlanta region, with continuing demands for rapid service 
expansion.
    While we do not expect the same explosive growth that we 
experienced in the 1980s and 1990s, another 3 million people 
are projected to come into the Atlanta region by 2050.
    You find staggering concentrations of both physical 
infrastructure rehabilitation and replacement needs, coupled 
with the devastating turnover of experienced personnel at all 
levels, resulting from retirements that are also understandably 
but very unfortunately clustered. And, finally, a monumental 
and oftentimes not fully appreciated organizational shift from 
being a building organization to an operating organization. And 
having been in this industry for 30 years, I can tell you that 
this requires a very different skills set, competencies, and 
organizational focus.
    In closing, I want to stress the point that the challenges 
confronting us in addressing the issue of state of good repair 
are industry-wide. Virtually every community and transit 
operator is grappling with this issue, regardless of size or 
geography.
    I applaud FTA's recent very serious focus in this area and 
strongly support the expansion of their April 2009 state-of-
good-repair report to conduct an industry-wide assessment of 
state of good repair beyond the seven largest systems included 
in this report.
    It is my firm belief that significantly expanded Federal 
transportation investment, coupled with real programmatic 
restructuring, a level playing field, outcomes-based, with 
meaningful performance metrics, strong Federal oversight, in-
depth technical assistance as we kick this off; and serious 
incentives for local self-help and investment are key elements 
of the prescription needed to help us move forward.
    I also believe that ultimately there must be consequences 
for those systems and communities that are not prudent stewards 
of our Federal investment.
    Unfortunately, but honestly, our industry is so behind in 
the area of state of good repair, and best in class asset 
management--in large measure attributable to decades of 
significant underinvestment--that many transit system managers 
candidly do not really know what they do not know or, more 
importantly, should know about the state of good repair of 
their systems.
    While it certainly is not right, human nature being what it 
is, all too often a malaise sets in over time when you 
continuously defer projects and do not have the funding needed 
to address obvious repair, rehabilitation, and replacement 
needs. Before you know it, first, it simply and insidiously 
becomes OK to be OK. Then after another 7, 10, 20 years of 
deferral, it becomes OK to simply get it out the door without 
an obvious safety defect or problem.
    For an industry that is clearly dependent on big things 
that move, all moving safely and efficiently in precision, it 
is a sure glidepath to mediocrity when our core service and 
system expectations and standards slip. In my humble opinion, 
this is the real challenge that faces our industry and the 
communities we serve in our Nation if we continue to neglect 
the very real and systemic issue of state of good repair.
    At the end of the day, what is the overall transit vision 
and expectation--a national rail transit system of first choice 
or one of last resort?
    Chairman and Subcommittee Members, once again thank you for 
the opportunity to share my thoughts and perspectives.
    Chairman Menendez. Well, thank you all very much, and thank 
you for those very honest reflections there at the end.
    We will start a round of questioning. The distinguished 
Ranking Member of the full Committee has joined us, Senator 
Shelby. We appreciate him being with us.
    And I appreciate, Mr. Catoe and Dr. Scott, your talk--your 
mentioning our testimony about the SILO/LILO legislation. I 
know how important it is. I just hope our colleagues from 
Virginia, Maryland, and Georgia would join us in the process of 
cosponsoring the legislation. It will help us move it along. I 
do know how consequential, if we don't get some relief there, 
we are going to have for transit agencies across the country.
    Mr. Catoe, I want to ask you--I know the investigation is 
still going on, so I don't expect you to comment about what 
those results will be. We don't know. We will wait for the 
results. But have you as an agency from that experience learned 
anything in the context of what we are talking about here that 
is of value to the Committee and would be of value to other 
agencies?
    Mr. Catoe. First, let me tell you some of the steps that we 
have put in place. The Metro System, as I mentioned before, is 
over 30 years old--and prior to the accident, we were running 
various tests on our systems once a month. Since the accident, 
we have run tests twice a day, and based upon the 
recommendations from the National Transportation Safety Board, 
we are in the process of developing a real-time detection 
system, and that will take time to develop but that is 
underway.
    The other aspects of looking at the system and what we have 
learned, something that we knew and we have planned for is the 
need to replace cars once they exceed a certain life 
expectancy. The issue that the NTSB did discuss with us, which 
did not cause the accident but has an impact on the amount of 
damage that can be done, is the crash-worthiness of old transit 
vehicles. And so that is an issue that we all have talked about 
here today.
    In addition to those actions, based upon the direction of 
the investigation, another action is to clearly look at your 
signaling system and the computer back-ups for that to make 
sure that the systems that you are using are up to date and you 
are using the best possible technology. That requires an 
enormous amount of investment in capital dollars.
    Chairman Menendez. Thank you.
    Chairwoman Brown, let me ask you, your testimony highlights 
that even a successful agency, that without adequate funding, 
performance can suffer.
    Ms. Brown. Yes.
    Chairman Menendez. And I think that the Chicago Transit 
Authority has effectively used some of the Recovery Act funding 
to deal with some of their challenges, if I am not mistaken. 
But if you don't get a significant increase in rail 
modernization funding over the next 6 years, what does your 
system look like then?
    Ms. Brown. CTA has a $6.8 billion unfunded capital need. 
Without a significant investment in our capital to keep it 
safe, I think you would see a smaller CTA. With recent 
increases in ridership, I think that would be unfortunate. So 
where we cannot guarantee our riders' safety, we would not 
operate that part of the system, whether that is on bus or on 
rail. Consequently, our system looks smaller and does not carry 
the number of riders that it currently does today.
    Chairman Menendez. So you would probably have to reduce 
service.
    Ms. Brown. We would reduce service. The same investment 
needs and safety standards apply to both bus and heavy rail. 
Therefore, we would reduce the number of routes we carry in the 
city and the 40 suburbs that we serve by reducing the number 
and the frequency of buses. If our rail fleet continues to age 
and we can't replace the rail cars, we would have to increase 
the headways because we would be operating with fewer rail 
cars.
    Chairman Menendez. Mr. Sarles, in a lot of good testimony 
you have a caveat, and I wanted to dwell on the caveat for a 
moment. You allude to the fact that you are worried about too 
much Federal oversight of how agencies keep themselves in a 
state of good repair. So my question to you is, do you oppose 
any requirement to report state of repair information, or where 
is the balance? I know you all want money from the Federal 
Government, and appropriately so, but it seems to me that we 
also have responsibilities here for safety. And so what is the 
right balance?
    Mr. Sarles. We are very happy to provide all the 
information we have on the condition of our system. What 
concerns me is when I hear discussions of decision algorithms, 
which means that you take all that information and an algorithm 
developed by somebody else sort of spits out what are the most 
important priorities. That type of decision making needs to be 
made by the Transit Authority, in our case, at least, by the 
engineers and the maintenance and operating people who know the 
system best and can decide where we go first in terms of our 
spending our money. But in terms of providing information, we 
are very happy to provide it.
    Chairman Menendez. Well, I am not a big algorithms guy. We 
do that in homeland security, too, as we deal with the Nation's 
cargo that comes into our ports and we depend on algorithms to 
hopefully get it right. I am not sure that that is the best way 
to do it. But there is a balance. In my personal view, there is 
a need for the FTA to have a sense of what it is that a state 
of good repair is and what that information is to make informed 
policy decisions and allocations, as well. So to some extent 
that we can get together and work with the Administrator to get 
to what our definition is, I think it is very important.
    Mr. Sarles. And we will work with them on that.
    Chairman Menendez. Yes. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Mr. Chairman, I 
was not here when Administrator Peter Rogoff was here, but I 
have a number of questions that I would like to submit to him 
for the record.
    Chairman Menendez. Without objection.
    Senator Shelby. Thank you.
    To all of you panelists, have we added to the overall 
problem perhaps by allowing systems to continue to expand and 
grow without regard to their ability to maintain what they 
have? In other words, I know it is a mixed bag here. If you 
don't grow, you can't finish a system. I know that. But at the 
same time, maintenance and safety is so important a cog in the 
wheel, is it not? Ms. Brown.
    Ms. Brown. Well, I would like to note that even the aging 
systems continue to grow because of the demand for service and 
the increased ridership.
    Senator Shelby. Sure.
    Ms. Brown. I think that the more people we can move to 
public transportation, the better. And so I think that the 
growth is good. I think that we need continued investment in 
the system, as well.
    I always state that there is not a public transportation 
system in the world that is not subsidized by its government. I 
think the investment needs to be increased so that we can 
encourage people out of their cars for a cleaner, safer 
environment and onto public transportation. I think this 
applies to old rail systems but also to systems like MARTA that 
are middle-aged. CTA is a senior citizen on its last breath and 
in need of help, but it is also important for middle-aged 
systems.
    Senator Shelby. But whatever systems we operate--and Mr. 
Catoe understands that well, we all do--they have got to be 
operated safely, have they not, because they are moving people 
at as much speed as we can put together.
    Mr. Catoe. Yes.
    Senator Shelby. Go ahead, Mr. Catoe.
    Mr. Catoe. Absolutely, Senator, and if I could respond a 
little bit on your first question, in my testimony, I did talk 
about the balance, that sometimes it is not as pretty to come 
to a repair of a rail line, but it is absolutely critical that 
that occurs. So there needs to be a balance of the state of 
good repair and maintenance of an existing system, but we have 
observed around the country, and specifically here in 
Washington, DC, our system assumed that it would carry 300,000 
to 400,000 people. It now carries in excess of 800,000 people 
on a daily basis, and on some occasions, like the Inauguration, 
1.5 million.
    So there has to be this balance of safety of the system and 
the state of good repair and also the monies, when necessary, 
to expand capacity, and that is what I support and that is part 
of the position that this group is taking in this testimony. 
All of that, too, relates to safety. The state of good repair 
means that you have a safe system.
    Senator Shelby. Any of the other panelists, do you want to 
comment?
    Ms. Scott. I would just echo the comments. I think it is 
really an issue of balance. There is no question about the 
importance of state of good repair--and the needs for balance 
and additional funding. We have got another--I am just 
preaching to the choir--another 150 million people that are 
going to be in the U.S. over the next 40 years and so we have 
got to wind up doing expansion. But at the same time, we cannot 
let that go at the risk of not running safe systems.
    So I think that the challenge that really faces us is that 
we have got to significantly increase the funding on both ends 
of the spectrum, both for state of good repair as well as for 
expansion, and then ultimately, I call it more with a velvet 
hammer, OK, because we have gotten ourselves into this 
quagmire, I think we have got to have an immediate infusion 
that really is very focused on the state of good repair and 
understand we have got what we have got and then ultimately 
wind up tying Federal funding decisions, in terms of expansion 
to at least being able to show a modicum in terms of what you 
have done in terms of satisfactory use of that investment, and 
I would be very supportive of that.
    But we are in the mess that we are now, and quite candidly, 
just putting a hammer down and saying, well, there is not going 
to be any growth until we wind up taking care of state of good 
repair, I think would be short-sighted on all of our parts.
    Senator Shelby. Do you have any comments?
    Mr. Sarles. Just to go back to a little bit of what I said 
earlier, our first priority has always been safety and state of 
good repair. That is how we took a system that was totally 
disinvested in in the last part of the last century and created 
one that is in a state of good repair. And we always look to 
spend our money first on state of good repair.
    But when we looked at capacity expansion, such as the ARC 
tunnel project, one of the things that we were required to do 
was demonstrate to the FTA that in our capital program, not 
only could we take care of capacity expansion, but we had the 
money to maintain a state of good repair for the existing 
system.
    Senator Shelby. Is the primary problem lack of funds, lack 
of planning, or all of it? Yes sir, Mr. Catoe.
    Mr. Catoe. Thank you, Senator Shelby. The first problem is 
lack of funds, lack of sufficient funds.
    Senator Shelby. Sufficient funds.
    Mr. Catoe. There is funding, but the needs are greater than 
the amount of funding. And if you look from a historical 
perspective, and we talk about balance, we could probably look 
back and say, maybe we didn't have the proper balance of 
expansion and maintenance of our system. But over time, the 
amount of dollars necessary for the maintenance grows at a much 
higher rate than what has been budgeted and allocated under the 
Federal program.
    And from a planning perspective, again, that needs to be 
part of the mix going forward whenever there are appropriations 
for new starts, that we need to build in the formula, what will 
it cost to maintain that system over the next decades or 
century.
    Senator Shelby. Ma'am, do you want to say something?
    Ms. Brown. Well, I was just going to add that in the case 
of CTA, our funding problems are also operational. And so as we 
try and straddle the operation funding shortfalls, we tend to 
use some capital dollars for preventive maintenance which 
exacerbates our capital needs problem. So it is a funding 
problem on both sides.
    Senator Shelby. Mr. Catoe, I am not picking on anybody, we 
are just looking for answers to things. Your ridership is about 
800,000 day in, day out now?
    Mr. Catoe. The ridership on the rail system averages just 
slightly under 769,000----
    Senator Shelby. OK.
    Mr. Catoe. ----but we have had the 25 highest ridership 
days in the past----
    Senator Shelby. How much money does that bring in in a 
year, just roughly?
    Mr. Catoe. Roughly, and I have to do the math in my head, 
about $400 million. We recover approximately 80 percent of the 
operating costs on the rail system through the fares----
    Senator Shelby. You knew what my question was going to be.
    Mr. Catoe. Yes.
    Senator Shelby. So you recover about 80 percent through 
your cash-flow, whatever it is.
    Mr. Catoe. Through the fares themselves.
    Senator Shelby. OK.
    Mr. Catoe. On the operating costs, not capital costs.
    Senator Shelby. OK. All right. Is that basically what the 
others do, more or less?
    Mr. Catoe. I think it is the second-highest in the country. 
I think New York----
    Ms. Scott. It is second-highest in the country. I am 
overall at a 28 percent farebox recovery, and on rail, we are 
at roughly 35 percent.
    Senator Shelby. OK. What about New Jersey?
    Mr. Sarles. New Jersey, overall, we are between 45 and 50 
percent. Rail runs higher, bus a little bit lower.
    Ms. Brown. CTA is roughly 50 percent. It is a little higher 
this year because our subsidy was cut, about 63 percent this 
year.
    Senator Shelby. OK. It is my understanding that the Federal 
Transit Administration does not currently define ``state of 
good repair.'' Do you believe that there should be a uniform 
definition for state of good repair, and more importantly, 
should there be specific measures and requirements tied to such 
a definition? In other words, first of all, is that right? FTA 
does not currently define state of good repair?
    Mr. Catoe. Senator Shelby, if I might, I don't feel like I 
am being picked on, so I don't mind responding. I think there 
are various definitions in the industry----
    Senator Shelby. I wasn't here. I am sorry.
    Mr. Catoe. OK. There are various definitions in the 
industry of the state of good repair, and what we need to do, 
working with the Federal Transit Administration, is to ensure 
that we have the same definition and that we have the same 
measurements in place to ensure the systems are consistent. And 
so the answer to your question is, I support a common 
definition and a common standard of measurement throughout the 
industry to determine state of good repair.
    Senator Shelby. Do you--go ahead. I am sorry.
    Ms. Scott. I would join that. In fact, when you asked the 
previous question, I think that part of the problem has 
definitely been under-investment, but the other issue is that 
we really are all over the map in terms of structure on state 
of good repair, what it means, having the tools, having the 
appropriate information. And so there is real rigor that is 
required in that area.
    Now, I join with Rick over here. I don't want to wind up 
seeing something that just becomes a cookie cutter that spits 
out some numbers and then all of a sudden, there is some rigid 
pass or fail, but some real greater discipline in that area is 
definitely required.
    Senator Shelby. Thank you. Mr. Chairman, thank you for 
holding the hearing.
    Chairman Menendez. Thank you, Senator Shelby.
    I just want to just follow up with one or two last 
questions before we are going to start a series of votes. We 
have been fortunate that we got all this testimony in before 
the votes start.
    You know, I think Senator Shelby raised a good question 
when he said, correct me if I am wrong, but basically, should 
we not be considering when we are extending service versus our 
capacity to maintain in good condition the existing service we 
have. I guess that is a challenge to agencies, right, because 
if there is a demand for greater service and you don't meet 
that demand, then there is a flip side of a consequence to 
that. Obviously, that ridership goes somewhere else, and 
therefore your farebox goes down and that has a consequential 
effect. Is that a fair assessment of it?
    Mr. Catoe. Well, if you don't provide quality service and 
have sufficient capacity, your ridership will drop. We have not 
experienced that, though. Our experience has been that we have 
very heavy loads and heavy capacity. But again, as I commented, 
I support the concept of if you are going to build a system, 
that you plan for the maintenance of that system year one, two, 
three, out through year 50, and that there are provisions set 
aside to do that. One of the issues for the reauthorization or 
the authorization bill, is how is the mix broken up----
    Chairman Menendez. Let me ask you this question. I don't 
mean to interrupt you, but if you get 80 percent back, in your 
case, of your operating costs, which means you still have a 20 
percent shortfall----
    Mr. Catoe. Yes.
    Chairman Menendez. ----what do you get on your capital 
costs?
    Mr. Catoe. From the farebox recovery standpoint, there is 
zero on capital. The local jurisdictions as well as the Federal 
Government pay for that.
    Chairman Menendez. Right. So the bottom line is that even 
one of the most highly efficient operating systems has a 20 
percent shortfall in its operating budget and it gets nothing 
in terms of its ridership ultimately as it relates to capital 
needs. So this is a fundamental reality of a mass transit 
system and I think that our colleagues in the Congress have to 
understand that as one of the fundamental issues in whether or 
not you want an effective mass transit system.
    My other point is that I think that, in my view as someone 
who previously, before coming to the Senate, represented a 
Congressional district, Senator Shelby, that was right across 
from Midtown Manhattan, and on that fateful day on September 11 
came to a very hard way of understanding that in a post-
September 11 world, having multiple modes of transportation are 
critical for national security. On that particular day, when 
the PATH trains stopped, when the bridges were closed, when the 
tunnels were closed, having another form of transportation, 
which in that case was ferries, poured people out of downtown 
Manhattan to get triaged in hospitals in New Jersey.
    And while that is different than the type of transit that 
we are talking about right now, it highlighted the importance 
of a post-September 11 world in which multiple modes of 
transportation, in addition to getting to a place for job and 
economic opportunity, in addition to improve the quality of 
life that we have, sitting less time in traffic and being more 
productive at work and having more quality time with our 
families, in addition to improving the air that we breathe in 
many parts of this country where cancer, respiratory ailments 
are still too high and unacceptable, in addition to 
environmental issues, in addition to planning in a way that you 
can create ratable basis around transportation systems through 
transit villages, that there is also a security component to 
this, because when something happens, God forbid, and I hope it 
never, ever happens again--that is what we work every day to 
make sure--but if it were to happen, we need multiple modes of 
transportation to get people out of that area of incidence into 
a place of safety, and I think that is another component that 
we lose sight of along the way.
    Well, with that, thank you all for your testimony. The 
record is going to remain open for 1 week to allow Senators the 
chance to ask follow-up questions in writing. For those of you 
who receive questions, we ask you to respond to them as 
promptly as possible.
    I want to thank all the witnesses for participating, 
helping the Committee prepare for the upcoming reauthorization 
legislation.
    With that, the hearing is adjourned.
    [Whereupon, at 3:47 p.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]

                 PREPARED STATEMENT OF PETER M. ROGOFF
             Administrator, Federal Transit Administration,
                      Department of Transportation
                             August 4, 2009
    Chairman Menendez, Ranking Member Vitter, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the state of good repair of the Nation's public 
transportation systems. In the interest of both the safety and the 
reliability of our public transportation systems, it is imperative that 
we aggressively address and stay on top of their aging condition. 
Deferred maintenance items, if deferred long enough or left undetected, 
can become critical safety risks. The issues of the conditions of our 
transit infrastructure and the safety of our transit systems are 
inextricably linked. The Federal Transit Administration's (FTA) role in 
the safety oversight of these systems is extremely limited as a matter 
of Federal law. We are statutorily prohibited from establishing 
national safety standards for a large segment of the Nation's rail 
transit system. Still, FTA continues to regularly assess the condition 
of transit infrastructure and disseminate and encourage best practices 
by the industry.
Safety
    Safety is the Department's highest priority. And, as we address 
safety issues as part of this hearing, it must be remembered that 
traveling by rail transit in the United States remains an 
extraordinarily safe way to travel--far safer than traveling on our 
highways. That makes it particularly important that our transit systems 
maintain their infrastructure to a standard where they can provide 
riders with service that is both reliable and comfortable. Conditions 
that prompt commuters to abandon transit and get back into their cars 
adversely impact highway safety performance. And, defective equipment, 
late trains, broken escalators, and malfunctioning air conditioners do 
just that.
    While transit remains the safest mode of surface transportation in 
the United States, the National Transportation Safety Board (NTSB) has 
been called in to investigate several transit-related accidents in the 
recent past. The NTSB investigated the July 2006 Chicago Transit 
Authority (CTA) Blue Line derailment that resulted in 152 injuries. 
They concluded that ``[t]he tie plates and fastener systems failed to 
maintain the track gauge because of the effects of corrosion, wear and 
tear, and degraded ties.'' Their report stated, ``[the accident is a] 
wake up call . . . to all transit agencies . . . with equipment and 
infrastructure that ages with each passing day.'' This lag screw served 
as one of thousands holding CTA rail to ties in the area of the Blue 
Line derailment. As you can see, it is corroded and deformed from its 
original design. It was so ineffective that it could be removed by 
hand. The NTSB report noted that most of these ties and fasteners date 
back to the installation of the original Blue Line that opened for 
revenue service on February 25, 1951. It should not be a surprise to 
anyone that a 58-year-old track structure is prone to failure.
    The NTSB statements appear prophetic today. While its investigation 
of the June 22, 2009, Washington Metropolitan Area Transit Authority 
(WMATA) subway train collision is not complete, NTSB preliminarily 
reports that the condition of equipment and age of the rolling stock 
may have resulted in the tragic loss life and injuries. Such tragedies 
are unacceptable. A little over a year earlier, on June 9, 2008, there 
was a derailment on WMATA's Orange Line outside the Court House 
station. The accident investigation and WMATA's subsequent public 
announcements indicated that an undetected track defect had contributed 
to the derailment. WMATA responded by initiating the purchase of a 
track geometry car which should be on the property by this September to 
better assess and evaluate track defects to find and correct problems 
before a derailment occurs.
    We all must focus our attention and resources on this important 
issue of maintaining the significant public investment in transit 
systems, if we are to maintain public confidence. Moreover, while 
transit remains a safe mode of travel, data indicates that a number of 
accident categories have trended up in recent years.
    Equipment failures at transit stations can also cause safety 
problems and erode customer confidence. A little over 2 months ago, New 
York's Metropolitan Transportation Authority, (MTA) released a list of 
23 of its worst-functioning elevators and escalators. MTA operates 158 
passenger elevators and 169 escalators in five boroughs. According to 
the report, three escalators have not operated in over a year, another 
two escalators worked less than 37 percent of the time, and yet another 
escalator operates only 67 percent of the time. The report also showed 
that about 31 MTA elevators and escalators dropped from working more 
than 90 percent of the time in 2008 to working only 80 percent of the 
time or less. And, in July 2008, a ``subway report card'' issued by the 
Straphangers Campaign said that the New York City Transit subway system 
experienced mechanical failures every 156,624 miles in 2006 and every 
149,646 miles in 2007.
    On July 19, 2006, the Boston Herald reported that Massachusetts Bay 
Transportation Authority (MBTA) received 99 complaints within 2 days 
about air-conditioning breakdowns. MBTA acknowledge that ``roughly 14 
percent of the fleet--47 cars--had air-conditioning problems'' the day 
before.
    Safety is not just about the condition and aging of equipment. The 
human factor is a critical element. On July 28, 2008, two MBTA trains 
collided, killing one of the operators and injuring three crew members. 
Of the 185 to 200 passengers on the two trains, four sustained minor 
injuries and one was seriously injured. In its July 23, 2009, report, 
the NTSB stated that the total damage was estimated at $8.6 million and 
found that the probable cause was the failure of the operator of the 
striking train to comply with the controlling signal indication. In 
this instance, the NTSB also found that a contributing factor was the 
lack of a positive train control system that would have intervened to 
stop the train and prevent the collision. In yet another incident 
involving MBTA transit system on May 9 of this year, approximately 46 
people were taken to area hospitals after an operator slammed his 
trolley into another trolley. It has been reported that the operator 
admitted to texting at the time of the accident.
    Similarly, on July 22, 2009, a collision between San Francisco 
Municipal Railway (Muni) light-rail vehicles at the West Portal station 
injured 47 people. While the NTSB is far from concluding its 
investigation into this accident, investigators reported that the 
operator involved in the crash appears to have switched his train to 
manual about 24 seconds before the light-rail vehicle plowed into 
another train stopped in the station. In so doing, he may have disabled 
the very system designed to avoid such accidents. These incidents point 
up the nexus between the state of good repair and the organizational 
safety culture at transit agencies. Employee attitudes and performance 
are shaped by the environment they work in. If important maintenance 
and renewal are deferred, it sends a message. If leadership at all 
levels of government allow transit infrastructure to degrade, FTA is 
concerned that public transit employees may become disheartened and be 
less confident in the functional capacity of their automated safety 
equipment systems.
    Rail transit provides more than three billion passenger trips each 
year, and moves millions of people each day. At the same time, national 
passenger fatality rates for heavy rail transit systems are about 0.03 
per million passenger miles. This accident rate is lower than most 
other modes of transportation and far safer than traveling by 
automobile. However, as evidenced by the recent accidents and incidents 
highlighted in my statement, in order to maintain this level of safe 
performance, government at all levels must address each transit 
system's state of repair and safety regimes more aggressively. We 
cannot rest on the laurels of a good safety record--we must take action 
to ensure that we stay on top of aging infrastructure so that we can 
not only maintain, but also improve that record. Otherwise safety will 
degrade.
    It is important that we ensure that transit systems know how to 
develop asset management systems, and that they use them to make tough, 
but critical investment decisions. Asset management systems focus the 
attention of transit operators on undertaking the most critical repairs 
first, and optimizing the sequence of maintenance and repair work over 
the life of the asset so that the asset is maintained at a state of 
good repair and at the highest level of safety. This statement is not 
directed at only the older systems. Newer systems built with advanced 
technology are aging, and we are uncertain of the useful life of these 
technologies. So this must be a focus for the entire industry as well.
Federal Regulation
    Our Nation's rail transit systems operate under two very different 
Federal safety regimes. Some commuter rail systems are funded by FTA 
but regulated by the Federal Railroad Administration (FRA) safety 
regulations, while light, heavy, and other urban rail systems are 
overseen by the State safety oversight (SSO) agencies. For example, 
commuter rail operations on the general system of railroads--like the 
Southeastern Pennsylvania Transportation Authority's (SEPTA) 
Philadelphia/Doylestown regional rail line (R-5) and New Jersey 
Transit's Northeastern Corridor Line--fall under FRA's safety 
regulatory system, which includes national mandatory safety standards 
and on-site spot inspections and audits by Federal technical 
specialists and inspectors, who have backgrounds in train control, 
track operations and other disciplines. FRA is also empowered to 
dictate operating practices and assess fines on those transit operators 
that don't comply. On the other hand, for rail systems not subject to 
FRA oversight--such as the SEPTA's trolley system and Market-Frankford 
heavy rail line, NJ Transit's Hudson-Bergen light rail system, and 
PATCO (which is a subsidiary of the Delaware River Port Authority of 
Pennsylvania and New Jersey)--the State is expected to take the lead 
for oversight and require those agencies to establish a safety program. 
The State, through a designated SSO agency, is then expected to monitor 
the transit system's implementation of its safety program. FTA's role 
is to identify elements of requisite system safety program plans and 
requirements regarding the timing and establishment of an SSO agency 
(when there is an FTA funded rail system in the State), provide 
training and technical assistance to the SSO agency, establish some 
requirements for State oversight responsibility, and monitor the 
State's oversight activities. FTA is prohibited by law from 
establishing national safety standards, requiring Federal inspections, 
or requiring specific operating practices.
    Given this gap between the level of regulatory oversight for rail 
transit operations and commuter rail operations, a team of safety 
officials and experts under the leadership of Deputy Secretary John D. 
Porcari is focused on developing options for transit safety reforms, 
which may extend to bus operations as well. To that end, the Deputy 
Secretary's workgroup is collaborating with other modal administrations 
within the Department of Transportation (DOT) with jurisdiction in 
safety regulation. These include the Federal Railroad Administration, 
the Federal Motor Carrier Safety Administration, and the Federal 
Aviation Administration. We are also assisted in our analysis by the 
Research and Innovative Technology Administration. This team will 
review the many alternative models within DOT to address safety as well 
as review the statutory authority on safety for transit with an eye 
toward developing reforms.
Conditions and Performance
    As suggested earlier, the state of good repair is not just about 
safety--it is also about the condition of the infrastructure and 
reliability of transit systems nationwide. The expected useful life for 
rail vehicles is 25 years, 10 to 12 for heavy-duty transit buses, and 
40 to 50 years for facilities. However, transit assets are often called 
upon to work beyond their original useful life, which requires renewing 
capital improvement investment. According to DOT's 2006 Conditions and 
Performance Report (C&P report), the average age of urban light rail 
cars is 16.5 years and for commuter rail passenger coaches it is 17.8 
years. The average age of bus vehicles in urban areas is 6.1 years. 
Meanwhile, nearly half of the Nation's urban bus maintenance facilities 
are more than 21 years old. More to the point, on average nearly one-
third of urban bus maintenance facilities are in marginal or poor 
condition, as are 51 percent of urban rail passenger stations and 8 
percent of rail transit track. Yet, as transit infrastructure is aging, 
the demand for service continues to rise. Americans took 10.3 billion 
trips on public transportation in 2008, the highest level ever, 
surpassing increases in any other mode of transportation.
    Marginal or poor transit infrastructure conditions exist despite 
FTA's financial support of rehabilitation and replacement activities, 
primarily through section 5309 Fixed Guideway Modernization funds and 
Section 5307 Urbanized Area Formula Grant funds. In addition, 
preventive maintenance is an eligible capital project expense for 
transit agencies in both large and small urbanized areas. It includes a 
variety of expenditures--activities, supplies, materials, labor related 
to maintenance, services, and associated costs--required to preserve or 
extend the functionality and serviceability of a transit vehicle, 
facility, or other asset in a cost-effective manner.
    For the most part, systems that are adequately financed are those 
that have a dedicated funding source. For example, WMATA does not have 
a dedicated source of funding, which we believe has contributed to the 
system's deteriorating state of repair. Secretary LaHood and I support 
any Congressional effort to make public transportation agencies more 
financially viable with dedicated local revenue funding sources, which 
we believe should be directed to addressing the most safety critical 
issues in the systems as identified by appropriate vulnerability 
assessments.
State of Good Repair
    Clearly, funding is not enough. Public transportation agencies must 
make it a top priority to achieve and maintain a state of good repair 
to provide safe and reliable service to millions of daily riders. To 
foster this commitment, FTA has made transit infrastructure's state of 
good repair its priority and has embarked on a multipronged initiative, 
in partnership with the transit industry, to make progress on this key 
priority. FTA's state of good repair initiative includes sharing ideas 
on recapitalization and maintenance issues, asset management practices, 
and innovative financing strategies. FTA kicked off its state-of-good-
repair initiative in 2008, with an initial meeting of 14 transit 
properties to help the agency identify key issues in bringing the 
industry into a state of good repair. Since then, FTA has published 
reports on issues associated with state of good repair; set up a state-
of-good-repair Web site; formed an FTA-Industry working group to 
discuss and share issues and ideas; and, just last month, convened a 
``State of Good Repair Roundtable'' hosted by WMATA in Washington, DC. 
The purpose of this roundtable meeting was to draw attention to the 
issue, share experiences, and identify needs to address the repair of 
our Nation's transit infrastructure. It was attended by over 50 transit 
experts representing nearly 30 large and small rail and bus transit 
systems.
    Continuing the momentum, in April 2009 FTA presented its State of 
Good Repair Study, prepared in response to the conference report 
accompanying the fiscal year 2008 Transportation-HUD Appropriations Act 
and to a December 7, 2007, letter from Senator Richard Durbin and 11 
other senators to FTA.
    The State of Good Repair Study assessed the level of capital 
investment required to attain and maintain a state of good repair for 
the Nation's seven largest rail transit operators (Chicago's CTA, 
Boston's MBTA, New York's MTA, New Jersey Transit, San Francisco's Bay 
Area Rapid Transit System (BART), Philadelphia's SEPTA, and 
Washington's WMATA), which carry 80 percent of the Nation's rail 
transit ridership. Unlike the most recent C&P report, which looks at 
the average condition of large and small transit agencies' bus and rail 
fleets and facilities, the study assessed assets based on their useful 
life. The study also estimated the total value of the existing backlog 
of over-age assets at these seven agencies.
    The State of Good Repair Study finds that more than one-third of 
the seven agencies' assets are in marginal or poor condition, compared 
with less than 20 percent for transit agencies in the Nation as a 
whole. This finding indicates that these assets are near or have 
already exceeded their expected useful life. In addition, the study 
finds that there is a backlog of unmet recapitalization needs of about 
$50 billion at the Nation's seven largest rail transit operators. 
Imagine the impact to the Nation's economy if these seven systems could 
no longer provide, due to the deteriorating conditions of 
infrastructure, the basic mobility that so many Americans depend on 
daily. Estimating future transit infrastructure needs is difficult, but 
additional investment will be needed over the next few decades to deal 
with physical deterioration, congestion, and travel demand.
    Transit agencies recognize the need to progress on their state of 
good repair. For example, SEPTA, one of the seven study agencies, will 
receive $190 million in funds from the American Recovery and 
Reinvestment Act of 2009, which the agency is dedicating to long-
deferred rehabilitation of rail stations and other facilities and the 
purchase of 40 replacement hybrid buses. While all seven study agencies 
maintain asset inventories for capital planning purposes, and while the 
industry recognizes the need to improve conditions, the State of Good 
Repair Study found that other asset management practices are lacking. 
These include the use of decision-support tools that provide for the 
ranking and prioritization of reinvestment needs and the conduct of 
comprehensive asset condition assessments on an ongoing basis. In order 
to assist agencies in correcting these deficiencies, FTA is developing 
a transit asset management training course, working with the Federal 
Highway Administration Office of Asset Management, to glean ``lessons 
learned'' from their bridge and pavement management systems to see how 
they might be applied in transit, and conducting a review of U.S. and 
international agency asset management practices.
Next Steps
    The importance of bringing the transit industry into a state of 
good repair and addressing the industry's safety and reliability 
problems makes clear that further action is needed. To this end, FTA 
will initiate an expanded study, looking beyond the seven largest 
transit agencies, to better understand industry-wide state-of-good-
repair needs. As part of this follow-on study we will seek to identify 
what we define as safety critical infrastructure. We will also consider 
the relationships between a transit agency's current infrastructure 
conditions, its ability to maintain and improve those conditions, and 
its plans to implement new projects under FTA's discretionary New 
Starts program.
    My staff and I are eager to work with this Committee to identify 
authorization proposals that will assist agencies in achieving and 
maintaining a state of good repair that is so necessary to the safety 
and reliability of public transportation service in our Nation. I will 
be happy to answer any questions you may have.

                 PREPARED STATEMENT OF CAROLE L. BROWN
                  Chairman, Chicago Transit Authority
                             August 4, 2009
    Chairman Menendez, Ranking Member Vitter, and Senators of the 
Committee, thank you for the opportunity to testify today and address 
the needs of Chicago's transit system and the importance of the 
transportation authorization bill.
    My name is Carole Brown and I am the Chairman of the Board of the 
Chicago Transit Authority. The CTA is the second largest transit agency 
in the country. We carry nearly 1.7 million rides per weekday on 242 
miles of track and 154 bus routes throughout Chicago and Cook County. 
CTA is the primary transit agency in northeastern Illinois. We carry 80 
percent of the transit riders in the Chicago region. We are the agency 
that operates the ``L,'' the elevated train system that has become an 
iconic symbol of Chicago.
    Sadly, that iconic symbol is aging and in poor health, as is our 
bus fleet and our subway system. Our oldest elevated rail, the North 
Mainline, was built between 1899 and 1900; our oldest subway, the State 
Street Red Line, was built during World War II; our oldest rail car 
still in operation dates to 1969 and it has 1.7 million miles on it; 
and our oldest bus garage, the 77th Street Garage, was built in 1907.
    As you can see from the pie chart (Attachment 1), CTA has a $6.8 
billion, 5-year unfunded state-of-good-repair need. This is in addition 
to our current fully funded 5 year, $3 billion capital plan, and does 
not include expansion projects that total over $4 billion. $6.8 billion 
is the shortfall needed in order to bring our system to a state of good 
repair.

                              Attachment 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Our largest maintenance need--$4 billion--is in the category of funding 
that Congress often calls ``Rail Mod.'' The $4 billion includes:

  <bullet>  $900 million for rail stations and park-n-rides

  <bullet>  $915 million for basic rail structures like foundations, 
        viaducts, and subway exhaust systems

  <bullet>  $525 million for track work, railroad ties and ballasts

  <bullet>  $410 million for power substations and contact rail and 
        cables

The pictures of rail ties and rail structure (Attachments 2 and 3) are 
unfortunately common throughout our system.

                              Attachment 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also need $1.2 billion to repair and replace our rail fleet that 
travels 225,000 miles per day. We use 1200 rail cars to operate our 
system; 28 percent of this fleet is over 32 years old. The FTA standard 
for useful life is 25 years. Our rail fleet's average age is 24 years. 
We could replace two-thirds of our aging fleet of rail cars with $1.2 
billion.
    We are thankful for all of the Federal rail modernization and other 
formula funds we receive. In the past 2 years CTA has borrowed against 
future Federal funds in order to reduce our 15 minute per mile slow 
zones from 30 percent of the rail system to just 7 percent. As we 
completed this repair work in 2008, CTA ridership increased 5 percent 
due in part to a sudden spike in gas prices. At the same time, as was 
seen throughout the rest of the country, vehicle miles traveled on the 
region's roads declined. The good news is that even after gas prices 
were cut in half this past fall, those people who had switched from 
driving to transit continued to ride the trains and buses rather than 
return to driving. Had we not fixed the slow zones when we did, those 
people new to transit would have become frustrated with slow, 
inefficient, and unreliable train service and quickly returned to 
commuting in their cars.
    The whole point to my being here is to stress the importance of 
maintaining the Nation's transit systems. A healthy transit system 
helps to alleviate congestion on the Nation's roads. Indeed, a 
substantial and sustained investment in transit is critical to our 
Nation's economic well-being.
    That is why I was so pleased that 12 members of the Senate 
including Chairman Menendez and Senators Bayh, Dodd, and Schumer asked 
for a Federal Transit Administration report on the Nation's rail 
modernization needs. The resulting FTA Rail Modernization Study Report 
to Congress found that fixed guideway funding is no longer being 
allocated solely to its intended recipients--rail transit systems--and 
that due to nonfixed guideway based entities such as high occupancy 
lanes, and bus lanes taking a share of the money, the intended 
recipients have seen their funding decline sharply. As a result, the 
seven largest rail transit systems, including CTA, New Jersey Transit, 
WMATA and the New York City MTA, carry 80 percent of the Nation's rail 
riders but have witnessed their maintenance backlog grow to a 
collective $50 billion. The CTA share of this figure is over $4 
billion, which in real terms means that CTA rail track and rail cars 
have grown past their useful life, thereby leading to an increase in 
rail slow zones to ensure safety on the rail system.
    CTA is in dire need of modernization. Your leadership in addressing 
this issue for Chicago and many of the other older rail cities would go 
a long way to rectify this problem. The FTA report provides a blueprint 
for modernizing the Nation's fixed guideway systems by simplifying the 
Fixed Guideway Modernization Program so that funds are allocated based 
on age, type of rail system, and maintenance needs of a transit system. 
Realignment of the program will likely lead to an increase in funds for 
true fixed guideway agencies such as CTA, New Jersey Transit, WMATA, 
and New York City MTA which means a faster, more efficient, and safer 
ride for our rail riders. I thank you Chairman Menendez for your 
leadership on this issue and ask the Members of the Committee to 
consider the FTA recommendations as you deliberate the transportation 
authorization bill in the coming months.
    While CTA's rail system is in the greatest need of repair, I would 
be remiss if I didn't address our bus needs. A significant portion of 
our fleet of 2,200 buses, which carry a million rides per weekday, is 
well past its intended life. 15 percent of our bus fleet is more than 
12 years old, which happens to be the FTA standard for useful life. And 
these national standards don't reflect the unique conditions of 
individual transit systems: CTA vehicles travel many more miles, carry 
far more people and operate in harsher climate conditions than the 
typical transit system. As you can see from the picture that is 
Attachment 4, our three hundred-plus 1995 series buses average over 
450,000 miles. These buses have traveled the distance from the earth to 
the moon--AND back.

                              Attachment 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When I testified before the House Committee on Transportation and 
Infrastructure in January, Congressman Defazio of Oregon asked me how 
quickly CTA could spend any money it received from the proposed 
stimulus funding. Just one month after President Obama signed the 
American Reinvestment and Recovery Act the Chicago Transit Board 
proceeded with the purchase of 58 buses from New Flyer and approved a 
$56.6 million contract for renewal of approximately 36,000 feet of 
track in the Blue Line Dearborn subway. This work will remove existing 
slow zones, prevent new slow zones from developing, and is expected to 
be completed by the end of this year. Indeed, on April 20, Senator 
Durbin joined us as we broke ground on the project--the first major 
transit project to be paid for with ARRA funds. CTA will also use the 
ARRA funds for:

  <bullet>  Preventive Maintenance--projects are fully spent and 100 
        percent complete--$75.2 M

  <bullet>  Replacement Buses--11 buses delivered out of 58; project is 
        19 percent complete. Target final delivery by October 2009--$50 
        M

  <bullet>  Kedzie Garage HVAC Replacement--project is 2-3 weeks from 
        being fully encumbered. Target completion is November 1--$5.5 M

  <bullet>  North Park Garage Oil/Water Separator--Staff will recommend 
        award of construction bid at August CTA Board--$2.4 M

  <bullet>  Subway Escalators--Project is underway, construction 
        continues--$4.8 M

  <bullet>  Reconstruct Rail Stations--$14.4 M

  <bullet>  Cermak Station Rehabilitation--Zoning work in process, 
        design work in process, permitting in process--$12.5 M

  <bullet>  Belmont/Fullerton Canopy Extensions--CTA Board approval 
        July 15, target completion date is December 2009--$1.9 M

    I want to thank every member of the Senate for their leadership in 
passing this much needed stimulus bill that will create over 1500 jobs 
just through projects for CTA alone.
    Finally, while I've focused on capital, it is worth noting that 
transit also has operating needs. National transit ridership has 
reached 50-year highs with over 10 billion trips taken in 2008. CTA 
alone provided half a billion of these trips. Yet ironically, transit 
providers throughout the country are raising fares and cutting back on 
well-utilized service because of shortfalls in operating funding. 
Earlier this year CTA increased its monthly passes from $75 to $86. 
We've experienced a $190 million, or 20 percent, decrease in the 
operating subsidy that we receive from the State of Illinois this year 
and expect it to remain flat in 2010. Cutbacks of this magnitude will 
force a reduction in service and possibly another increase in fares. 
People will be forced back into their cars; the unemployed, seniors, 
and disabled could be stranded. I appreciate the efforts to allow the 
use of stimulus funds for operations. But as I pointed out, CTA's 
capital needs are so great that diverting scarce capital resources to 
operating expenses further erodes our ability to maintain a viable 
transit system for the citizens of Chicago.
    I hope my testimony here today has given you a glimpse of the 
challenges the Chicago Transit Authority faces, but also the great 
opportunities robust transit systems offers for the Nation's economic 
well-being. I know Chicago's issues are a good example of the issues 
facing all large cities with older transit systems, so we are not alone 
in our plight and in our opportunities.
    I would be happy to take any questions, and I thank the Committee 
for your hard work in crafting a transportation package that will keep 
people and the economy moving.
                                 ______
                                 

                PREPARED STATEMENT OF JOHN B. CATOE, JR.
    General Manager, Washington Metropolitan Area Transit Authority
                             August 4, 2009
    Mr. Chairman, Ranking Member Vitter, and Members of the 
Subcommittee, thank you for the opportunity to testify before you 
today. I am John Catoe, General Manager of the Washington Metropolitan 
Area Transit Authority, known as WMATA, or Metro. My testimony today 
will provide an overview of Metro's capital needs over the next 10 
years and make several recommendations about ways that the Federal 
Government can help rail transit systems meet their future 
infrastructure needs.
    Before I address those topics, I want to take a moment to thank the 
Chairman for his leadership on an issue that has arisen as a result of 
the economic downturn with regard to transit agencies' leaseback 
arrangements with banks and other financial institutions (known as 
``LILOs''). These arrangements were endorsed by the Federal Transit 
Administration as an innovative financing mechanism to help transit 
agencies meet their capital needs, and I encourage the Congress to 
swiftly enact Chairman Menendez's legislation, S. 1341, to protect 
transit agencies from having to make windfall payments to the banks.
    I also want to commend the Chairman and Members of this 
Subcommittee for their leadership on the issue of transportation and 
climate change. The hearing that Chairman Menendez convened last month 
on this topic clearly showed that unless we find a way to reduce the 
growing number of vehicle miles we travel every year, emissions will 
increase faster than they can be offset by simply using cleaner fuels 
and vehicles. I encourage Congress to include funding for transit 
projects in the climate change bill currently being developed and to 
create incentives for sensible transit-oriented development policies 
around those projects in order to reduce transportation sector 
emissions. In this way, we could further leverage the benefits that 
public transportation provides to all of us. Transit takes cars off the 
road, reducing congestion and fuel consumption and improving air 
quality. As we here in the National Capital Region know well, public 
transportation systems also stimulate economic growth that generates 
and sustains employment. Transit makes a significant contribution to 
Americans' quality of life, and it is essential that there be 
sufficient investment in our existing transit infrastructure to allow 
transit agencies to continue to provide the service that our Nation 
needs and deserves.
Background on Metro
    The Washington Metropolitan Area Transit Authority was created in 
1967 as an Interstate Compact agency through enactment of legislation 
by the U.S. Congress, and by the Commonwealth of Virginia, the State of 
Maryland, and the District of Columbia. Metro is the largest public 
transit provider in the Washington, DC, metropolitan area and the 
second largest subway and sixth largest bus system nationally. 
``America's Transit System'' serves a population of over 3.5 million 
within a 1,500 square-mile area as well as visitors to our Nation's 
capital from across the country and around the world. During Metro's 
most recent fiscal year (July 1, 2008-June 30, 2009), we provided on 
average 748,000 rail trips, 446,000 bus trips, and 7,000 paratransit 
trips every weekday. The Metrorail system operates a fleet of 1,100 
rail cars on a 106-mile system, with 86 stations, and the Metrobus 
system operates a fleet of more than 1500 buses serving more than 
12,000 bus stops along 340 routes in the District of Columbia, 
Maryland, and Virginia. The Metro system is critical to the vitality of 
the region and one that is used every day by Federal workers, who make 
up about 40 percent of Metrorail's rush hour riders.
    During fiscal year 2009 the Metro system provided nearly 360 
million trips, about 223 million of which were on the rail system, 134 
million on Metrobuses and over 2 million with the MetroAccess 
paratransit service. Over the last 3 years (FY2007-2009) ridership on 
the rail system has grown by 15 million annual passenger trips (a 7 
percent increase) and ridership on Metrobuses has grown by 2 million 
annual passenger trips (a 2 percent increase). MetroAccess ridership 
has been growing as well, and is up by 43 percent since 2007.
Metro's Capital Needs
    While ridership is at an all-time high, the Metro system is feeling 
its age. To use an analogy that any homeowner can relate to: our 
crowded house is 33 years old, and our needs go far beyond a spring 
cleaning and a fresh coat of paint. We have a wet basement, rusting 
pipes, cracked tiles, old wiring, and the equivalent of a 1976 model 
car in a 100-year-old garage. If we are to help meet the future 
transportation needs of this region, including the Federal Government, 
we must begin to address these issues today.
    Recognizing this fact, Metro staff recently conducted a detailed 
capital needs inventory for the period between FY2011 and FY2020, and 
determined that the agency's future capital needs in that period total 
more than $11 billion. The inventory addresses only the existing Metro 
system; it does not include the costs of any extensions of the current 
system. Almost two-thirds of the needs are focused on Metro's aging 
infrastructure and are necessary to maintain the system's safety and 
performance; the remaining third are focused on investments necessary 
to increase the carrying capacity of the existing system in order to 
meet future ridership growth and improve the customer's experience.
    According to the capital needs inventory, Metro will need more than 
$7 billion over the next 10 years to maintain and improve the current 
bus, rail and paratransit systems in a state of good repair and to 
deliver safe and reliable service. These needs include repairing 
leaking tunnels and crumbling platforms, upgrading our tracks and 
associated infrastructure, fixing escalators, replacing about 100 buses 
every year, replacing very old bus facilities (including one that is 
100 years old), and updating critical software. Metro also needs to 
replace more than a quarter of its rail car fleet, including cars that 
are more than 30 years old and near the end of their lifecycle.
    Almost $4 billion would be targeted to meeting the growing 
ridership demands and improving the customer's experience on Metro's 
bus, rail, and paratransit system during the next decade. Between 
FY2010 and FY2020, Metrorail ridership is expected to grow 22 percent 
to nearly 1 million trips per day, and Metrobus ridership is expected 
to grow 9 percent to over half-a-million trips per day. To serve even 
more riders with better quality service, Metro is proposing service 
enhancements in a number of priority corridors that would increase bus 
ridership by roughly 20 percent by 2020. Metro needs power and control 
system upgrades and additional rail cars to run longer trains on all 
lines during rush and nonrush hours, more than 300 new buses, and 
additional MetroAccess vehicles to move these new riders. Demand for 
this service to transport people with disabilities who are unable to 
take Metrorail or Metrobus is expected to double to roughly 4.5 million 
trips per year by 2020.
Safety and Reliability
    As the Members of the Subcommittee are no doubt aware, Metro 
experienced a tragic accident on June 22, 2009, when two Red Line 
trains collided outside of our Fort Totten Metrorail station. I and all 
Metro employees are terribly saddened by the loss of life and the 
injuries that occurred on that day. While Metro is a transportation 
provider, safety is at the foundation of everything we do. We have 
always taken our responsibility for safety seriously, and we will not 
rest until we know the cause of the accident and have addressed it.
    While the investigation of the accident is still ongoing by the 
National Transportation Safety Board and no root cause has yet been 
identified, the accident has refocused attention on the state of rail 
infrastructure around the country. Given that heavy rail systems move 
millions of people each day, this is a topic of vital importance, and I 
appreciate this Subcommittee's attention to it.
    Metro recently cohosted a roundtable with the Federal Transit 
Administration which brought together representatives from transit 
agencies around the country to discuss the importance of, and the 
challenges related to, keeping rail systems in a state of good repair. 
Also, as you are aware, the Federal Transit Administration issued a 
report earlier this year identifying a significant backlog of state-of-
good-repair needs at the seven largest heavy rail transit systems, 
including Metro. Both the roundtable and the study made clear that 
there is ample demand from many transit systems for additional Federal 
support to sustain the safety and reliability of their systems.
    People outside the rail business may not realize just how much work 
is involved in keeping a rail system running smoothly. It takes a lot 
of effort to maintain a system with over 200 miles of track, 86 rail 
stations, and 1,100 rail cars, not to mention 1,500 buses and all of 
the associated facilities and infrastructure. Let me give you an 
example. Metro's Board of Directors recently approved a contract to 
rehabilitate a segment of the Red Line, our oldest line. Typical work 
to be performed under the contract--which does not include maintenance 
or rehabilitation on the tracks or bridges themselves--includes:

  <bullet>  Traction power work

  <bullet>  Automatic train control and communications upgrades

  <bullet>  Track fastener replacement

  <bullet>  Tunnel lighting replacement

  <bullet>  Tunnel ventilation and fire stand pipe rehabilitation

  <bullet>  Platform slab and tile replacement

  <bullet>  Platform canopy roof replacements

  <bullet>  Station vault repairs

  <bullet>  Air conditioning and ventilation equipment rehabilitation 
        and replacement

  <bullet>  Elevator and escalator rehabilitation and replacement

These activities may not be exciting to hear about, nor will they 
generate ribbon-cuttings or groundbreakings. But without them, service 
and safety will suffer. There will be more delays due to failing 
infrastructure, and that means lost time for our customers, and lost 
productivity for our region. The work we do every day on rehabilitation 
and replacement of our rail assets and infrastructure is the foundation 
upon which this region's mobility rests.
Federal Transit Programs
    With that background, I would like to take this opportunity to make 
some observations about the Federal transit program, how it works 
today, and how it could be improved to better meet the needs of heavy 
rail transit systems such as Metro.
    As a rail system that is over 30 years old, Metro's largest capital 
cost is maintaining that system in a state of good repair. As I said 
earlier, almost two-thirds of our capital needs over the next 10 years 
are focused on maintaining the safety of our system and the reliability 
and quality of our service. The primary factor that limits our ability 
to fully meet these needs is, not surprisingly, money.
    The Federal formula programs from which Metro receives an 
allocation (the Section 5307 Urbanized Area Formula and the Section 
5309 Fixed Guideway Modernization Formula) have worked well and have 
helped to support Metro's efforts to maintain the safety and 
reliability of our system. However, as the system continues to age, we 
need additional support from the Federal Government to ensure that 
needed rehabilitation and replacements can take place. In order to 
continue maintaining and improving our infrastructure, we will need an 
increase in the overall size of the Federal transit program or in the 
share of the program directed toward replacement and rehabilitation of 
existing assets.
    The Federal Government is not being asked to stand alone with 
regard to investment in public transportation. These Federal dollars 
would be matched by local sources, including contributions from the 
State and local governments in the communities we serve. Speaking for 
Metro, our local funding partners have stepped up to the plate time and 
time again. Between now and next July, they will contribute $574 
million, or about 41 percent of total operating cost for the rail, bus, 
and paratransit systems.
    They will contribute another $188 million, or about 36 percent of 
capital program costs, so that we may complete ongoing projects within 
the next 12 months. But they cannot do it alone, particularly in these 
challenging economic times.
    The funding provided by the Federal Government is critical to our 
ability to keep our systems running safely and reliably. If we do not 
receive sufficient funds now, service, as well as safety, will decline, 
leaving millions of Americans with few or no transportation options.
Increasing Ridership/Capacity Issues
    I also want to bring to the Subcommittee's attention an issue that 
many transit agencies are facing, ironically as a result of our own 
success. As more people are riding transit--to avoid traffic 
congestion, reduce fuel consumption, or for other reasons--
extraordinary demands are being placed upon our transit systems. Metro 
is already reaching capacity on many parts of our rail system. Our 
growing ridership is stressing our downtown stations and crowding our 
rail cars. As ridership continues to grow, conditions will become even 
worse. To visualize the future, one need only reflect on the crowding 
that Metro experienced on Inauguration Day, January 20, 2009, when we 
provided approximately 1.2 million trips on the rail system. As 
extraordinary as that effort seemed at the time, the record number of 
riders we carried on Inauguration Day could be the ridership we must 
move during a typical workday by 2020.
    To meet that demand, we are looking at expanding the rail fleet by 
220 new cars so that we can run longer trains; adding more than 300 new 
buses; and connecting key rail stations with pedestrian tunnels that 
will significantly reduce congestion in the downtown core and save our 
customers travel time. Of course, in order to run more cars on the 
existing system, we will also need to replace power and control systems 
to handle longer trains and shorter headways, as well as expand our 
rail maintenance facilities to accommodate the additional cars.
    These are capital investments on an existing transit system to 
upgrade, expand or increase the capability of the system to accommodate 
a demonstrated growth in ridership. These investments are needs beyond 
what can be funded from existing formula programs. In fact, the current 
structure of the Federal transit program does not provide funding for 
major capacity investments such as these. The bread-and-butter formula 
programs provide a predictable annual stream that helps us keep up with 
our routine capital needs. The New Starts program funds new service. 
Other programs meet other targeted purposes such as access to jobs and 
access for the disabled. All of these are extremely important, and 
should be continued and enhanced in the next authorization bill. 
However, there is no program at the Federal level to provide funds for 
a significant capital investment such as would be required to expand 
capacity on an existing system, such as purchasing additional rail cars 
and making the upgrades in power and maintenance facilities to 
accommodate them. As the Subcommittee considers ways to meet the 
infrastructure needs of transit systems, I encourage you to develop a 
source of funding at the Federal level for large-scale capital 
investments to expand capacity on existing systems so that we may meet 
future ridership demand.
Conclusion
    I appreciate the Subcommittee's interest in the state of America's 
heavy rail infrastructure. There is a strong Federal interest in 
increasing the level of funding directed toward transit infrastructure 
needs. In 2008, Americans took 10.7 billion trips on public 
transportation. Public transportation helps to meet national goals such 
as environmental quality, economic growth, and reduced dependence on 
foreign oil.
    We at Metro are committed to doing whatever is needed to ensure 
that our system is as safe as it can be and to providing the best 
possible service, now and in the future. We strongly urge the Congress 
to provide a higher level of investment in rail infrastructure to 
ensure that we can keep our system performing safely and reliably. 
Thank you for the opportunity to testify today, and I look forward to 
answering any questions you may have.
                                 ______
                                 

                PREPARED STATEMENT OF RICHARD R. SARLES
                 Executive Director, New Jersey Transit
                             August 4, 2009
    Chairman Menendez, Ranking Member Vitter, and distinguished Members 
of the Committee--my name is Richard Sarles and I am the Executive 
Director of NJ TRANSIT. NJ TRANSIT is the Nation's largest statewide 
public transportation system providing nearly 900,000 weekday trips on 
2000 buses, three light rail lines, and 12 commuter rail lines. NJ 
TRANSIT also operates hundreds of trains daily over the Amtrak-owned 
Northeast Corridor.
    Mr. Chairman, I want to thank you and the other distinguished 
Members of this Committee for providing me the opportunity to testify 
today on the criticality of providing the necessary capital funding for 
mature public transportation agencies.
    As you know, the Rail Modernization program was created by Congress 
to provide funding for established transit agencies for the purposes of 
improving existing systems, including purchase and rehabilitation of 
rolling stock, track, structures, signals and communications, power 
equipment and substations, passenger stations and terminals, 
maintenance facilities, and core capacity expansion.
    In short, the Rail Modernization program was created to assist in 
bringing my agency's infrastructure and the infrastructure of all of 
the mature transit agencies across the country to a state of good 
repair.
    When it comes to state of good repair, NJ TRANSIT is a success 
story.
    We inherited infrastructure and equipment from predecessor bus 
companies and railroads, such as the Pennsylvania and Erie Lackawanna, 
dating back in many cases to the earlier part of the 20th century.
    Unfortunately, public transportation under private ownership 
throughout much of the mid 20th century suffered from significant 
disinvestment and lack of maintenance.
    From its inception in 1979, NJ TRANSIT focused its efforts on 
restoring equipment, facilities and infrastructure to a state of good 
repair. It has taken three decades to bring NJ TRANSIT to a state-of-
good repair and we will need to continue to concentrate our efforts in 
this regard to maintain our infrastructure and equipment. In FY09 
alone, we spent two thirds (67 percent) of our capital program on state 
of good repair and capital maintenance.
    During the 1990s, NJ TRANSIT also expended significant resources on 
the connectivity of the system which necessitated capacity expansion 
projects including the Midtown Direct service from Montclair and the 
construction of the Frank R. Lautenberg transfer station in Secaucus. 
NJ TRANSIT also embarked on the construction of two light rail systems 
in the 1990s: Hudson-Bergen Light Rail and the Riverline.
    As those projects were being completed, we again reemphasized that 
our top investment priorities were safety, state of good repair and 
core system capacity.
    That effort has produced very tangible results.
    NJ TRANSIT is in the midst of the largest rolling stock upgrade 
program in our history, involving the purchase or rehabilitation of 
over 4,100 pieces of equipment.
    Over half of our rail passenger fleet has been replaced or 
overhauled in the past 6 years. We are also in the midst of replacing 
all of our transit and suburban style buses.
    We have invested over $100 million in four critical movable 
bridges. We have replaced viaducts, opened new rail yards, replaced 
wooden ties with concrete ties, and completed a $90 million automatic 
train control system upgrade.
    All of these efforts led the FTA to declare in May of this year 
that NJ TRANSIT's capital program supports a state of good repair for 
the system. However, continuing this success will require renewal and 
enhancement of Federal funding. It also requires adequate funding to 
support routine maintenance to prevent premature degradation of 
equipment and infrastructure.
    How did we get to this point?
    It started with the bipartisan support for the formation of NJ 
TRANSIT 30 years ago. Most recently, our focus on state-of-good repair 
was reinvigorated by Governor Corzine directing through the last 
reauthorization of our State Transportation Trust Fund that NJ TRANSIT 
produce an annual submission of our capital investment strategy to the 
NJ State Legislature. That strategy promotes safety and state of good 
repair as our top priority, followed by core capacity improvements and 
lastly expansion of the reach of our system.
    We also ``walk the walk.'' Our bridge inspection program directs 
our engineers to inspect all of our bridges biannually or annually, 
depending on the type of bridge. Inspection is not limited to bridges. 
Facilities too are inspected regularly.
    We have in-house forces whose principal focus is to replace track 
continually, throughout the system. These efforts have resulted in 
improved reliability for our customers. In fact, we have no slow orders 
on the rail system and our on-time performance in FY09 was 96.4 
percent.
    On-time performance slips to 94.1 percent when taking into account 
failures related to Amtrak infrastructure and equipment. The reason for 
this is simple. Amtrak, which owns the spine of our rail system, has 
been unable to provide the requisite funding to state of good repair in 
New Jersey because of historic, drastic underfunding.
    On the other hand, New Jersey has consistently provided significant 
funding from its Transportation Trust Fund to NJ TRANSIT for capital 
expenditures. In fact, Governor Corzine has allocated more than 40 
percent of New Jersey's transportation capital funds to NJ TRANSIT. And 
these funds are matched 1 for 1 by Rail Modernization funds and 
Urbanized Area funds from the Federal Government. Since 2002, NJ 
TRANSIT's capital program has exceeded $1 billion.
    I am hopeful the trend of underfunding Amtrak will be reversed with 
the welcomed increases in capital funding through the American Recovery 
and Reinvestment Act and the FY10 Appropriations bills making their way 
through Congress.
    With respect to our bus fleet, we have evaluated our bus needs and 
determined that with over 3,000 buses, we need to replace 200 to 250 
buses a year, every year, just to maintain our current level of state 
of good repair.
    We have teams of engineers, planners, operating personnel, and 
capital funding personnel who meet throughout the year to continually 
reprioritize capital projects as needed to address the most critical 
state-of-good-repair needs.
    This comprehensive capital funding planning process has moderated 
operating cost increases. A continued focus by NJ TRANSIT on state of 
good repair will assure the reliability of our system for generations 
to come.
    So where do we stand and what can Congress do to continue and 
bolster our efforts to maintain state of good repair?
    First and foremost, I urge this Committee and Congress to increase 
funding for public transportation--through both the Rail Modernization 
formula (5309) and the Urbanized Area formula (5307). Costs continue to 
increase as aging systems expand to meet demand.
    Thanks to Congress and President Obama, the American Recovery and 
Reinvestment Act has provided us the opportunity to accelerate 
additional state-of-good-repair projects. For instance, the Lower 
Hackensack bridge rehabilitation project--a $30 million project, which 
had been scheduled to be funded in our out-year capital program, was 
advertised in June thanks to ARRA funding.
    I will caution the Committee that there are some things Congress 
should carefully consider.
    First, any kind of formula program that distributes money in such a 
way as to proportionately decrease funding to transit agencies that are 
in a state of good repair is problematic. I suggest any funding program 
specifically targeted to state of good repair should be incentive 
based.
    For example, state-of-good-repair projects could be allowed to 
proceed with 100 percent Federal funds, instead of the normal 20 
percent local match. Or, properties that are in a state of good repair 
could be eligible for increased New Starts share for expansion 
projects.
    Another situation Congress should carefully consider is 
implementing any asset management system that prescribes which projects 
should advance ahead of others.
    It would not be prudent for a Federal agency to determine which 
bridge should be fixed first, or which station should be replaced. 
Those decisions should be made by those closest to the infrastructure 
and equipment.
    We made significant advances in state of good repair in New Jersey 
by making it our top priority and pushing the decisions on how to spend 
the state-of-good-repair money down to the engineers and maintenance 
staff who evaluate the infrastructure and equipment. I have concerns 
related to proposals that suggest all of the information about the 
infrastructure conditions of transit agencies should be collected on 
the Federal level, put into a database, where an algorithm would 
produce a list of what should be fixed.
    Formula programs that distribute funding based on the condition of 
the infrastructure necessitate just such a system. Those decisions 
should be made locally, by those who have the expertise to make them 
and I urge this Committee to pursue funding formulas without strings 
attached that could supersede these decisions.
    I want to reiterate that state of good repair has been NJ TRANSIT's 
top priority from its inception and I appreciate this Committee 
allocating valuable time and resources to considering strategies for 
maintaining the state of good repair of the Nation's transit agencies.
    Thank you again for the opportunity to testify today.

             PREPARED STATEMENT OF BEVERLY A. SCOTT, Ph.D.
              General Manager and Chief Executive Officer,
              Metropolitan Atlanta Rapid Transit Authority
                             August 4, 2009
    Chairman Menendez, thank you for this opportunity to present 
testimony to the Subcommittee on Housing, Transportation, and Community 
Development regarding rail modernization needs. You are holding this 
hearing at a critical time, as the transit industry looks forward to 
the next Surface Transportation Authorization at a time when annual 
ridership has reached record levels in the midst of a severe financial 
crisis. I understand that I have been invited to appear before you 
today primarily in my capacity as General Manager and Chief Executive 
Officer of the Metropolitan Atlanta Rapid Transit Authority (MARTA), 
while I also have the honor of serving as Chair of the American Public 
Transportation Association (APTA). I truly appreciate your interest in 
improving public transportation service in the United States, and I 
look forward to working with you in my dual capacity as this next 
authorization legislation moves forward.
About MARTA
    The Metropolitan Atlanta Rapid Transit Authority (MARTA), the 9th 
largest transit system in the United States, provides comprehensive 
rail, bus, and paratransit service with over 143 million passenger 
trips per year. We are also one of a few Tier 1 transit systems 
designated by the Department of Homeland Security. The MARTA rail 
system provides revenue service over 48 miles of double-track to 38 
stations with 338 rail cars, with a total of 104 miles of mainline 
track and three rail yards with 20 miles of yard track. We operate 600 
clean fuel buses over 130 routes, and our MARTA Mobility (Paratransit) 
Program operates 175 lift-equipped paratransit vans serving persons 
with disabilities. We serve the core of one of the fastest growing 
regions in the Nation, expected to add three million more residents 
over the next 30 years. While Federal transportation investment has and 
remains critical to our transit system's preservation and expansion, we 
are primarily funded by a 1 percent sales tax levied in Fulton, DeKalb 
Counties, and the City of Atlanta.
    MARTA began heavy rail service in June 1979, with our most recent 
rail extension coming on line in December 2000. MARTA's current 
infrastructure represents a $6 billion-plus investment. Several 
suburban bus providers connect to the MARTA rail system which is the 
backbone of the regional transit network. While ridership has grown, 
the Region currently does not have the funding to expand service to 
accommodate rising demand.
    As importantly, and most germane to the subject of this hearing, 
our system is equally constrained in its ability to adequately fund and 
support the sharply escalating infrastructure renovation, 
rehabilitation, replacement, and modernization needs of a ``first 
generation, aging New Starts system.'' Candidly, not unlike the ``baby 
boomers'', MARTA is representative of a whole generation of rail 
transit systems in our country that have been established over the past 
25-35 years, largely in high growth areas with significant continuing 
pressures for growth and expansion. From a physical infrastructure, 
asset management and people perspective, the challenges facing these 
transit systems are oftentimes monumental as they grapple with the very 
real issues of system maturation, system preservation and system 
expansion.
    Not surprisingly, due to the recent economic downturn, there has 
been significant erosion in MARTA's capital program. Whereas, we had 
originally planned to invest $359 million in capital improvements this 
fiscal year, our adopted FY10 capital plan is now only $248 million. As 
previously noted, local sales tax revenue is our primary funding 
source, with approximately 15 percent of MARTA's current Capital Budget 
being federally funded. While our Region has adopted a progressive 
vision for transit expansion, known as Concept 3, which calls for major 
extensions to the MARTA rail system, we are still seeking to identify 
additional funding sources to be able to implement this Plan.
The Vital Federal Partnership
    We are indeed grateful for the long-standing support of Congress 
and the Federal Transit Administration, which has made a substantial 
contribution to MARTA's success. The development of MARTA's rapid rail 
system was greatly aided by the Federal New Starts program, with 
initial construction beginning in 1975 and our first East Line rail 
segment opening for revenue service in 1979.
    Most recently, passage of the American Recovery and Reinvestment 
Act (ARRA) has made a crucial difference in our agency's ability to 
survive the current economic recession. MARTA is receiving $88 million 
in Economic Recovery funding, which we are utilizing for our most 
critical needs--the Upgrade of our Fire Protection System, Replacement 
of Rolling Stock, and Preventive Maintenance.
    Despite this timely infusion of capital, MARTA and public 
transportation agencies across our Nation still face monumental 
financial challenges. We will need your continued support and 
significantly expanded Federal transportation investment to help us 
maintain our transit systems in a state of good repair.
    At this point, the results and costs of the decades of 
underinvestment in our surface transportation systems nationwide are 
well documented. As summarized most recently by the House Committee on 
Transportation and Infrastructure:

  <bullet>  the American Society of Civil Engineers grades our transit 
        systems a ``D'';

  <bullet>  over 32,500 public transit buses and vans have exceeded 
        their useful service life;

  <bullet>  within the next 6 years, almost every transit vehicle (over 
        55,000) in rural America will need to be replaced; and

  <bullet>  the Nation's largest public transit agencies face an $80 
        billion maintenance backlog to bring their rail systems to a 
        state of good repair.

And, this is just the tip of the iceberg.
State of Good Repair
    First, I will start by stressing that the challenges confronting us 
in addressing the issue of ``state of good repair'' are industry-wide. 
Virtually every community and transit operator is grappling with this 
issue regardless of size or geography. And, it is my firm belief that 
significantly expanded Federal transportation investment coupled with 
real program restructuring, meaningful performance metrics, strong 
oversight, and incentives for self help are key elements of the 
prescription needed to help us move forward. Within this broader 
context, I would like to take just a few moments to talk a bit about 
the MARTA system which is characteristic of an important slice of 
transit systems in our industry, which I commonly refer to as the 
``aging, one generation New Starts transit systems.''
    MARTA, which began rail operations 30 years ago, is no longer the 
``new kid on the block'' and is now a mature transit system well into 
middle age. We, along with our sister agencies in Washington, DC, and 
the San Francisco Bay Area--which also began in the 1970s--and a number 
of other first and second generation transit systems in largely high 
growth areas of the country (like San Diego, Sacramento, Portland, 
Miami--to name a few) are sometimes referred to as the ``Aging New 
Starts Systems.''
    MARTA's experience--as we begin our 2nd generation--is that while 
not a great deal of capital replacement may be needed in the first 
seven to 10 years of rail system operation, around that point many of 
the system infrastructure elements, seemingly all at once, begin to 
require recapitalization. For example, heavy rail cars, which have a 25 
to 30 year minimum service life standard, should typically undergo a 
midlife overhaul around the 12 to 15-year mark. It goes without saying 
that deferring such reinvestment is extremely costly--in terms of both 
reliability and potentially, safety. While the focus on state of good 
repair is typically driven by a look at physical infrastructure, I 
would be remiss if I did not also stress the critical importance of the 
associated people and workforce development considerations that are 
also an important element of this topic.
    As Congress considers the next surface transportation 
authorization, it is important that the needs of these first and second 
generation systems are adequately factored into the equation, including 
more equitable ways to allocate Rail Modernization funds. As 
importantly, funding flexibility and new initiatives in the area of 
workforce development would be very beneficial.
    As our transit system continues to age, it has become increasing 
challenging to maintain a state of good repair. The average age of our 
rail car fleet is over 20 years old, with our original fleet of 120 
rail cars now reaching the 30-year mark. In addition to rolling stock, 
fixed facilities such as passenger stations, trackway and structures, 
and train control and signal systems are subject to deterioration over 
time and need to undergo capital rehabilitation and/or replacement at 
the requisite intervals. In 2000, MARTA conducted its first Asset 
Condition Assessment which projected a need for significant 
reinvestment to sustain the system in a state of good repair over the 
next 20 years. We completed a comprehensive life system safety 
assessment this past year; and are currently in the process of fully 
updating our Asset Condition Assessment. Moving forward, this 
information will form the basis for our capital program planning and 
development--with a first focus on safety/regulatory compliance and 
``state of good repair''--fix it first. This past year, the MARTA Board 
of Directors codified this capital programming emphasis on safety/
regulatory compliance and state of good repair.
    Over the next 20 years, based on existing data--MARTA has a 
projected need of approximately $5.2 billion in capital reinvestment in 
order to safely maintain our existing rail/bus system in a state of 
good repair. Under the existing Federal program structure, projected 
FTA funding, while very much appreciated, falls far short in addressing 
these needs. For example, while MARTA transports over 80 million 
passengers per year on our heavy rail system, the Authority is 
receiving less than $37 million annually in FTA Rail Modernization 
program funding.
    On the plus side, MARTA has recently completed an extensive 
multiyear rail car rehabilitation program, overhauling 218 of our 
oldest cars to extend each car's life by 15 years. The cost-effective 
program has already resulted in an increase in MARTA's rail service 
reliability by 22 percent and has also improved on-time performance 
substantially.
    For a cost of $246 million, MARTA contracted with New York based 
Alstom Transportation, Inc. USA, to take each vehicle down to its shell 
and rebuild it from the ground up using new components and designs. By 
refurbishing the rail cars instead of buying new ones at a price of $3 
million each, which was the average cost of a new rail car in 2005, 
MARTA saved an estimated $408 million. Due to careful management of the 
rehabilitation contract, MARTA is completing the program approximately 
$3 million under budget. To ensure the long-term sustainability of the 
rail car fleet into the future, MARTA has developed and implemented a 
comprehensive Life Cycle Asset Reliability Enhancement (L-CARE) 
preventive maintenance/system preservation program, which is designed 
to maintain the newly rehabilitated vehicles in a state of good repair.
    The success of MARTA's rail car rehabilitation project highlights 
the criticality of ``state of good repair'' and system preservation to 
all rail transit systems. The MARTA project would not have been 
possible without the substantial financial support received through the 
FTA Fixed Guideway Modernization program, totaling $167 million in 
Federal assistance over a multiyear period. The assurance of annual 
formula funding over the life of the project enabled MARTA to make a 
multiyear commitment to rehabilitate the rail cars. It is essential 
that the Fixed Guideway Modernization program be expanded in the 
future, with guaranteed minimum overall funding levels, to better 
address the full range of rail system rehabilitation needs.
    The issues with regard to rail infrastructure investment are a 
national issue that is not confined to one group of rail transit 
systems or area of the country. There are absolutely staggering needs 
for many of our oldest rail transit systems that are well documented; 
growing needs for the next generation of aging systems (``the 
boomers'')--like MARTA; and a whole host of newer systems that will 
also go through the same growth and maturation process. Simply, we need 
a level of surface transportation funding investment that helps us 
begin to gain ground on the tremendous backlog in state of good repair 
accompanied by programmatic, performance-driven reforms that support 
and recognize self-help, prudent decision-making and resource 
allocation.
    Due to the recent financial crisis, the sales tax revenues that 
fund the majority of MARTA's Capital Budget have precipitously 
declined. This has unfortunately led to major cuts in our Capital 
Improvement Program (CIP), resulting in a $1.4 billion reduction in our 
CIP over the upcoming 10-year period. Many worthy projects, such as 
rail station renovations, rail trackway structure/pier refurbishment, 
station roof replacement, and station escalator, plumbing and 
electrical systems replacement--are having to be either deferred or 
eliminated. The Authority is prioritizing the constrained resources 
available on Life Safety and State of Good Repair projects. MARTA will 
soon be issuing major third party contracts to replace and upgrade our 
Automated Train Control System and to replace the running rail on a 
significant portion of our trackway. Other worthy projects, however, 
such as replacement of leaky roofs at older rail stations, have to be 
deferred. While our rail rolling stock is now in very good condition, 
additional funding resources will be needed to maintain a state of good 
repair on our fixed infrastructure facilities.
    We appreciate the FTA's recent initiatives focusing on the State of 
Good Repair (SOGR) in the transit industry. The FTA's Rail 
Modernization Report issued to Congress in April 2009, which focused on 
the needs of seven of the larger rail systems, was definitely a much 
needed report and a good beginning. We welcome and support FTA's 
interest in expanding this SOGR study to include other systems, such as 
MARTA's, which are also faced with similar challenges.
    While it is not the immediate focus of this hearing, I would be 
remiss if I did not also mention that many of our Nation's bus systems 
also have significant state-of-good-repair needs. A recent APTA/AASHTO 
survey indicates that public transit systems nationwide have not been 
able to keep pace with investment needs for bus replacement in 
accordance with FTA guidelines. The survey found that, in total, 59 
percent of the vehicles in our Nation's 40-foot urban bus fleet are 
overage, or will reach the end of their FTA-recommended service life 
during the next 6 years. There are also equally compelling needs for 
rural transit systems throughout the country.
    The maintenance of transit capital assets to ensure a ``state of 
good repair'' is critical. Deteriorating systems simply do not attract 
new riders. Both the National Surface Transportation and Revenue Study 
Commission and the recent report of the National Surface Transportation 
Infrastructure Financing Commission have highlighted the growing gap 
between our infrastructure needs and our present level of investment. 
The Federal Government has a clear responsibility to help maintain 
infrastructure it has already spent considerable resources to build, 
and also to help expand that infrastructure to meet our Nation's 
critical transportation needs.
    Proper asset management and proper maintenance today alleviates the 
need for much larger capital investments in the future. The ARRA 
provided a first step in addressing the backlog in system 
rehabilitation, but many systems across the country, including MARTA's, 
still face significant needs to maintain their existing public 
transportation assets. As we continue to maintain assets, we cannot 
ignore the equally challenging demand for new and improved services 
across the country where public transportation is not yet providing a 
level and quality of service that provides a real alternative.
    Fixed Guideway Modernization funding allocation decisions should 
take into account transit industry service life standards and life 
cycle rehabilitation/replacement cycles. I would recommend the 
development of a national inventory of transit assets, a prioritization 
of needs and required communication to FTA on when those needs have 
been improved to a state of repair of fair or better.
    There is a wave of rail transit systems that came on line in the 
1980s that are now reaching the generational mark--San Diego, 
Baltimore, Los Angeles, Miami, Portland, and Sacramento, just to name a 
few--that are either at or nearing the stage where substantial 
reinvestment is necessary. Most of these ``young adult'' to ``middle-
aged'' systems are located in areas of our Nation that are forecasted 
to experience significant population growth in the future. If these 
fixed guideway systems are not supported in a sustainable state of good 
repair, then their potential to maximize the previous investment will 
be compromised. It would not be prudent national policy to concentrate 
Federal modernization program funding solely on the older systems and 
allow the middle-aged systems to fall into a state of disrepair.
    Mr. Chairman, when it comes down to it, the real issue before us 
all is one of investment. Each of the Commission reports contains 
strong recommendations to the Congress about the investment levels 
needed in the Nation's public transportation systems. APTA's estimate 
of the total annual resources necessary to maintain and improve our 
transit systems to address our growing population and economic needs is 
$59.2 billion.
A Balanced Approach
    When asked, which is more critical--system expansion or system 
preservation--my answer is both are equally important. While on the one 
hand, it makes no sense to expand while the system is crumbling, at the 
same time we cannot afford to sit still. Transit provides such a 
substantial contribution to our Nation's economic health and quality of 
life, that both are essential. A strong Federal-State-local partnership 
that provides a healthy balance of resources to both maintain and 
expand transit services is of vital importance to our Nation's 
economic, social and environmental well-being.
    I urge the Subcommittee to strongly consider at least doubling the 
size of the Rail Modernization program over the next 6 years, based on 
the maxim that ``a rising tide lifts all ships.'' The program should 
strike a balance between being ``needs based,'' while also providing 
incentives for local and State investment as well. The formula should 
be fair and equitable, providing a reasonable opportunity for older, 
middle-aged, and newer systems to have adequate resources to sustain 
the previous investment in those systems.
    I support APTA's proposal dealing with changes to the Fixed 
Guideway Modernization program, which essentially seeks to balance the 
needs of the old, middle-aged, and new systems. One concern I have with 
the existing Program structure is that the initial tiers, which are 
first in line to be funded, are weighted in favor of the older areas. 
This became particularly acute to us in Atlanta, when the Recovery Act 
funds for Fixed Guideway Infrastructure were allocated. Rather than 
receiving a proportionate share of the funding, reliance on the 
preexisting seven-tiered formula negatively impacted the funding 
allocated to MARTA.
    It is thus important that the overall program funding level needs 
to be sufficiently high to fully encompass both Tier I (limited to 
existing systems) as well as Tier II, which would be open to all 
systems. We need to remember that the newer systems of today such as 
Phoenix will ultimately be facing similar challenges as systems such as 
Atlanta, Cleveland, Miami, and Washington, DC.
    MARTA supports APTA's recommendation to simplify the fixed guideway 
modernization program. The viability of APTA's two-tiered proposal is 
predicated on the hoped-for assumptions that the program funding will 
double, and that the program is needs based and its elements would be 
straightforward and uncomplicated. The current seven tiers should be 
folded into a much simpler two-tier formula program, and the funds 
provided equitably to all projects, without regard to minimum urbanized 
area population levels. The key to this structure being fair and 
equitable is that the overall funding level should be sufficient to 
fill-up both Tier I and Tier II. Otherwise, the newer systems, which 
have to solely rely on Tier II for their funding, will be 
disadvantaged. I respectfully request that Members of the Subcommittee 
keep the legitimate needs of all fixed guideway systems in mind as you 
prepare to deal with this critical legislation.
    Mr. Chairman, I would also like to take this opportunity to thank 
you for your leadership in sponsoring the ``The Close the SILO/LILO 
Loophole Act'' (S.1341). This vital piece of legislation would go a 
long way in protecting MARTA and other public entities from the risk of 
having to pay tens of millions of dollars to banks at a time when 
demand for transit services is at an all time high and transit agency 
budgets are strapped. The technicalities are complicated but the 
equities are clear. Congress cannot let banks gain windfalls via tax 
shelters at the expense of the Nation's transit agencies and other 
public agencies.
Conclusion
    Funding for a state of good repair ensures that we maintain an 
efficient and sustainable means for Americans to get to work, reduce 
dependence on foreign oil, improve air quality and combat global 
climate change. The challenge we face in fulfilling that vision rests 
on our willingness as a Nation to commit adequate resources to the task 
and to provide a financing mechanism for these resources. Public 
transportation provides mobility that contributes to national goals and 
policies to increase global economic competitiveness, energy 
independence, environmental sustainability, congestion mitigation and 
emergency preparedness. However, to be truly successful, public transit 
must be in a state of good repair. To realize public transportation's 
many contributions at the national and local levels, and to facilitate 
a doubling of public transportation ridership over the next 20-year 
period and address the aforementioned national goals and policies, a 
significant expansion of the entire Federal Transit program--including 
the Fixed Guideway Modernization Program--needs to occur.
    At a time that our systems are struggling to maintain a state of 
good repair in the face of declining state and local operating 
resources, we should not turn our back on the years of progress we have 
made in rebuilding a quality public transportation system. The Fixed 
Guideway Modernization program needs to substantially grow to address 
the state-of-good-repair needs of rail transit systems across our 
Nation. In considering the program structure, I would recommend a 
balanced needs-based approach, based on rational criteria, which is 
fair and equitable to all fixed guideway systems. The goal is to ensure 
all transit systems access to adequate capital funding while also 
simplifying the programs and speeding project delivery. In summary, I 
urge this Congress to provide the resources necessary to maintain a 
State of Good Repair among all of our Nation's rail systems--old, 
middle aged, and young. We need this Subcommittee's help to address 
this funding gap which threatens our ability to fulfill our mission.
    Chairman Menendez, I thank you and the Subcommittee for allowing me 
to provide testimony on this critical issue.
RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN MENENDEZ FROM PETER 
                           M. ROGOFF

Q.1. The April 2009 FTA Rail Modernization Report stated that 
``while total Federal support for transit infrastructure has 
increased, the Nation's oldest and largest systems' share of 
these funds has lost ground.'' In that same report the FTA 
documented a $50 billion backlog in projects needed to get the 
Nation's oldest and largest transit systems into a state of 
good repair. Does this mean that the FTA recommends changing 
the Rail Modernization formula to provide more funding for the 
largest and oldest systems? If not, what other ways do you 
suggest securing Federal funding to meet these needs?

A.1. The Nation's oldest and largest transit agencies carry 60 
percent of total (bus and rail) ridership but receive only 40 
percent of all Federal funding. As new systems are added, the 
Fixed Guideway Modernization Program is spread more thinly and 
the proportion of funds distributed to older rail systems has 
declined from over 90 percent in 1993 to less than 70 percent 
by 2006. However, maintaining these systems in a state of good 
repair does not necessarily require changing the fixed guideway 
modernization formula. Three things are required to maintain a 
state of good repair. The first is an adequate and reliable 
funding source. Several agencies have been successful in 
developing dedicated external funding sources, such as a sales 
tax or receipts from bridge tolls. The Denver Regional 
Transportation District is an example of an agency that manages 
this particularly well.
    The second is a capital improvement plan linked to a good 
asset management system. The former allows you to anticipate 
long-term needs and the latter provides the data to manage 
short-term needs in a long-term context. The Massachusetts Bay 
Transportation Authority in Boston has a very good asset 
management system which has allowed them to focus its limited 
resources on its most critical reinvestment needs.
    The third is a culture of strong management and focus on 
safety. When political expediency and growing demand tempt 
agencies to focus on system expansion at the expense of their 
existing infrastructure and equipment it is very hard to 
achieve a state of good repair. Transit agencies must make 
prudent choices which protects the public's investment in 
public transportation and ensures its safe maintenance and 
operation.

Q.2. Within USDOT there is emergency funding available when 
natural disasters strike roads, highway and bridges. Is there a 
comparable source of funding when similar disasters strike 
transit systems? Should there be emergency spending power for 
the mass transit account?

A.2. No, the Federal Transit Administration (FTA) does not have 
a funding source expressly for the provision of transit 
assistance in the aftermath of natural or man-made disasters. 
In the General Accountability Office (GAO) report, Emergency 
Transit Assistance--Federal Funding for Recent Disasters, and 
Options for the Future, February 2008, GAO stated that ``After 
the 2005 Gulf Coast Hurricanes, FEMA (Federal Emergency 
Management Agency) and FTA faced challenges that impeded both 
the timeliness and effectiveness of their assistance to 
transit.'' The report sites that ``neither FEMA nor FTA had 
mechanisms to provide transit funding immediately after the 
disasters.''
    GAO suggested an option is for ``Congress to establish an 
emergency relief program for FTA, similar to the DOT program 
for highways, or expand the scope of the highway program to 
include transit.'' Such a program could include ``quick 
release'' mechanism used to approve a release emergency highway 
funds within 1 to 2 days.

Q.3. Should transit agencies have to report to the FTA the 
state of repair of all its major equipment? My understanding 
right now is that just rail cars are reported.

A.3. Yes, FTA believes that transit agencies should report the 
state of repair of all its major equipment and fixed capital 
assets to its National Transit Database (NTD). Currently, FTA 
collects detailed condition information on all transit revenue 
vehicles, for both bus and rail modes, through the NTD. 
Inventories are also collected of other capital assets, 
including transit stations, maintenance facilities, and fixed 
guideway infrastructure, but these data do not include 
information on their condition or state of repair. Collecting 
additional information on the state of repair of these fixed 
capital assets would improve FTA's long-term capability to make 
good estimates of capital investment needs for the Nation, and 
for regional and modal segments of the transit industry. If 
collected by FTA, these data would also become a public 
resource, available to individual transit systems and their 
stakeholders and would assist in creating a data-based 
foundation for improving capital asset management practices in 
the industry.
    An enhancement to add data collection for fixed capital 
assets to the NTD has been explored and could be implemented if 
additional resources were made available. NTD funding comes 
from a line item in Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users that allocates 
$3.5 million per year to the program. This amount has not 
increased since passage of that Act in August 2005 and 
inflation has limited what can be done with the current NTD 
budget.
                                ------                                


    RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN MENENDEZ FROM 
                        CAROLE L. BROWN

Q.1. Do you believe the Rail Modernization formula should be 
changed? If so, how do you think it should be changed?

A.1. I was so pleased when you and 11 members of the Senate, 
including Chairman Menendez and Senators Bayh and Schumer, 
asked for a Federal Transit Administration report on the 
Nation's rail modernization needs. The resulting FTA Rail 
Modernization Study Report to Congress found that fixed 
guideway funding is no longer being allocated solely to its 
intended recipients--rail transit systems--and that due to 
nonfixed guideway based entities such as high occupancy lanes, 
and bus lanes taking a share of the money, the intended 
recipients have seen their funding decline sharply. As a 
result, the seven largest rail transit systems, including CTA, 
New Jersey Transit, WMATA and the New York City MTA, carry 80 
percent of the Nation's rail riders but have witnessed their 
maintenance backlog grow to a collective $50 billion. The CTA 
share of this figure is over $4 billion, which in real terms 
means that CTA rail track and rail cars have grown past their 
useful life, thereby leading to an increase in rail slow zones 
to ensure safety on the rail system.
    CTA is in dire need of modernization. Your leadership in 
addressing this issue for Chicago and many of the other older 
rail cities would go a long way to rectify this problem. The 
FTA report provides a blueprint for modernizing the Nation's 
fixed guideway systems by simplifying the Fixed Guideway 
Modernization Program so that funds are allocated based on age, 
type of rail system, and maintenance needs of a transit system. 
Realignment of the program will likely lead to an increase in 
funds for true fixed guideway agencies such as CTA, New Jersey 
Transit, WMATA, and New York City MTA which means a faster, 
more efficient, and safer ride for our rail riders. I would ask 
that you and Members of the Committee consider the FTA 
recommendations as you deliberate the transportation 
authorization bill.

Q.2. During these difficult economic times, you are facing high 
ridership and continued capital and maintenance needs. Has the 
infusion of ARRA funds empowered you to undertake some projects 
which you would have otherwise put off? Could you describe how 
the everyday life of one of your typical customers has improved 
because of these added resources?

A.2. Thanks to leadership from you and your Congressional 
colleagues, CTA received a total of $241 million in stimulus 
funds. CTA's unfunded capital need is so great that we were 
ready to proceed with contracts just 1 month after President 
Obama signed the American Reinvestment and Recovery Act. We 
proceeded with the purchase of 58 buses from New Flyer (a bus 
manufacturing plant located in Minnesota) and approved a $56.6 
million contract for renewal of approximately 36,000 feet of 
track in the Blue Line Dearborn subway. The 58 buses will 
replace older, less reliable buses that are costly to maintain. 
We expect all buses to be delivered and in revenue service by 
early September. The Blue Line Dearborn work is removing slow 
zones and preventing new slow zones from developing. The 
project will be completed by the end of this year. Our Blue 
Line project was the first major transit project to be paid for 
with ARRA funds. CTA would not have funded any of these 
projects with the ARRA funds. CTA is also using ARRA funds for:

  <bullet>  Preventive Maintenance--projects are fully spent 
        and 100 percent complete--$75.2M

  <bullet>  Kedzie Garage HVAC Replacement--target completion 
        is November 1--$5.5M

  <bullet>  North Park Garage Oil/Water Separator--Staff will 
        recommend award of construction bid at August CTA 
        Board--$2.4M

  <bullet>  Subway Escalators--$4.8M

  <bullet>  Reconstruct Rail Stations--$14.4M

  <bullet>  Cermak Station Rehabilitation--$12.5M

  <bullet>  Belmont/Fullerton Canopy Extensions--target 
        completion date is December 2009--$1.9M

    These projects enhance the ridership experience for our 
customers by making the trips faster and more reliable, and 
they improve customer and employee facilities. And importantly 
in this economy, we estimate the stimulus funds will create 
over 1,500 jobs just through CTA projects.
                                ------                                


 RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN MENENDEZ FROM JOHN 
                         B. CATOE, JR.

Q.1. Do you believe the Rail Modernization formula should be 
changed? If so, how do you think it should be changed?

A.1. Given the extensive capital needs of rail systems, 
particularly heavy rail systems, I believe that the first 
priority for the rail modernization program should be to 
increase the size of the program significantly to help rail 
systems meet those needs. Recognizing the desire among some in 
Congress and the industry to simplify the rail modernization 
formula, WMATA participated with other rail transit agencies in 
development of the simplified, two-tiered, needs-based rail 
modernization program proposed by the American Public 
Transportation Association last fall. I also want to bring to 
the Committee's attention a challenge associated with any 
needs-based formula, which is to ensure that needs are measured 
the same way across all transit agencies. Should Congress 
determine that changes to the rail modernization formula are 
desirable, I recommend that you also encourage the Federal 
Transit Administration to develop a methodology for capital 
reporting that will ensure consistency across agencies, as the 
FTA recommended in its recent Rail Modernization Study.

Q.2. During these difficult economic times, you are facing high 
ridership and continued capital and maintenance needs. Has the 
infusion of ARRA funds empowered you to undertake some projects 
which you would have otherwise put off? Could you describe how 
the everyday life of one of your typical customers has improved 
because of these added resources?

A.2. Yes, any capital investments we can make in our aging 
system help us to maintain our system in a state of good repair 
and conduct maintenance that might otherwise have been 
deferred. ARRA funding has allowed us to begin work on a long 
list of unfunded capital needs. We recently identified $11 
billion in such needs over the next 10 years, about two-thirds 
of which are focused on the safety and reliability of our 
system, and the remaining third on meeting growing ridership 
demand. We do not currently have funding in place to meet all 
of these needs.
    The $200 million of ARRA funding for WMATA is being 
primarily dedicated to:

  <bullet>  System infrastructure improvements

  <bullet>  Vehicle procurement

  <bullet>  Upgrades of maintenance facilities

  <bullet>  Procurement of heavy maintenance equipment

  <bullet>  Communications systems

    All of WMATA's customers will see benefits from our ARRA-
funded investments. Our new buses and paratransit vehicles will 
provide them with a more comfortable ride. By reducing average 
fleet age, we will also be able to deliver more reliable 
service to them. Our rail customers will see notable 
improvement in the condition of station platforms and the 
overall condition of our oldest stations. Farecard transactions 
will be a faster and more efficient process for our customers 
due to expansion of the Metro Center Sales Office and upgrades 
to fare media vending machines throughout the rail system.
    It should be noted that while some of the ARRA-funded 
investments will not be ``visible'' to the average customer, 
our customers will nevertheless experience improved service. 
Such behind-the-scenes investments in system monitoring and 
maintenance help reduce breakdowns and out-of-service time and 
include investments in heavy-duty equipment to complete rail 
maintenance and repairs more quickly; an enhanced bus 
maintenance monitoring system that alerts us to the need for 
repairs; and upgraded communications equipment in our new 
Operations Control Center and new kiosk and train control 
computers at various Metrorail stations.
                                ------                                


   RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN MENENDEZ FROM 
                       RICHARD R. SARLES

Q.1. Do you believe the Rail Modernization formula should be 
changed? If so, how do you think it should be changed?

A.1. Per my testimony on August 4, 2009--the Rail Modernization 
program was created by Congress to provide funding for 
established transit agencies for the purposes of improving 
existing systems, including purchase and rehabilitation of 
rolling stock, track, structures, signals and communications, 
power equipment and substations, passenger stations and 
terminals, maintenance facilities, and core capacity expansion.
    In short, the Rail Modernization program was created to 
assist in bringing my agency's infrastructure and the 
infrastructure of all of the mature transit agencies across the 
country to a state of good repair.
    When it comes to state of good repair, NJ TRANSIT is a 
success story. Our efforts and the Rail Modernization program 
has led the FTA to declare in May of this year that NJ 
TRANSIT's capital program supports a state of good repair for 
the system. However, continuing this success will require 
renewal and enhancement of Federal funding. It also requires 
adequate funding to support routine maintenance to prevent 
premature degradation of equipment and infrastructure.
    Any kind of formula program that distributes money in such 
a way as to proportionately decrease funding to transit 
agencies that are in a state of good repair is problematic.
    We made significant advances in state of good repair in New 
Jersey by making it our top priority and pushing the decisions 
on how to spend the state-of-good-repair money down to the 
engineers and maintenance staff who evaluate the infrastructure 
and equipment. I have concerns related to proposals that 
suggest all of the information about the infrastructure 
conditions of transit agencies should be collected on the 
Federal level, put into a database, where an algorithm would 
produce a list of what should be fixed.
    Formula programs that distribute funding based on the 
condition of the infrastructure necessitate just such a system. 
Those decisions should be made locally, by those who have the 
expertise to make them and I urge this Committee to pursue 
funding formulas without strings attached that could supersede 
these decisions.

Q.2. During these difficult economic times, you are facing high 
ridership and continued capital and maintenance needs. Has the 
infusion of ARM funds empowered you to undertake some projects 
which you would have otherwise put off? Could you describe how 
the everyday life of one of your typical customers has improved 
because of these added resources?

A.2. Yes. ARRA funding has allowed us to advance to 
construction many projects that had been planned for many 
years. The $8.7 billion Access to the Region's Core project, 
which involves the construction of a new trans-Hudson rail 
tunnel to Manhattan from New Jersey, has been in the planning 
stages for over 10 years. The ARRA funding allowed us to fund 
final design and begin construction on this project. Similarly, 
in South Jersey, since the opening of our River Line light rail 
system earlier this decade, there has been discussion of 
building a transfer station between the River Line and our 
existing Atlantic City rail line. Thanks to ARRA funding, that 
project will be under contract next month (October 2009). The 
estimated ridership is over 1,000 riders a day at this single 
station. These are just two of the 15 projects that NJ TRANSIT 
advanced through ARRA funding. Thanks to ARC, riders will have 
more transfer free rides to Manhattan. Thanks to the Pennsauken 
Transit Center in South Jersey, commuters will have options to 
take transit that they never had before.
    We're also using ARRA funding to expand parking at stations 
so that commuters can more easily find a place to park without 
needing to park along city streets to get to the train station. 
We're making stations easier to access, so if you are a 
wheelchair-mobile commuter, you will be able to access more of 
the system for the first time thanks to ARRA. We're improving 
signaling on three lines to allow for more express trains and 
more capacity, which means faster trains and more of them for 
our customers. We're buying new paratransit buses and buses for 
rural areas to improve the reliability of transit services that 
so many depend on every day. And we're also accelerating our 
state-of-good-repair program, which means our system and our 
riders will be able to count on our transit system for years to 
come. ARRA transit projects in New Jersey will make a very real 
and lasting difference to improve the quality of life of the 
residents of New Jersey.
                                ------                                


   RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN MENENDEZ FROM 
                        BEVERLY A. SCOTT

Q.1. Do you believe the Rail Modernization formula should be 
changed? If so, how do you think it should be changed?

A.1. Yes, the existing Fixed Guideway Modernization funds 
distribution formula should be changed. At the same time, I 
believe that it will be difficult to accomplish the substantive 
changes required in the current rail modernization program 
without a concurrent focus on addressing the well-documented 
magnitude of deferred maintenance (state of good repair) 
backlog. This would entail specific urgent funding directed to 
address this critical maintenance backlog with a priority on 
life safety systems.
    With this preface, I personally feel that the existing rail 
modernization formula should be simplified and changed in a way 
that more equitably balances the needs and level of service of 
both older, middle-aged and newer rail transit systems and 
builds in future flexibility to address the maturation cycle of 
all transit systems. For starters, the current and overly 
complex seven tiers should be consolidated into two funding 
tiers. The first tier could essentially ``hold harmless'' the 
existing funding levels currently received by each system. I 
believe this ``grandfathering'' should not be in perpetuity (an 
``entitlement for life'') and should be reviewed at specified 
intervals (i.e., 10 years). Assuming funding is provided to 
help address the critical maintenance backlog, any additional 
funding beyond the current FY2009 authorized level of $1.67 
billion could be distributed in a 2nd funding tier open to all 
systems in operation for at least 7 years. This Tier 2 funding 
should be distributed based on quantitative data that could be 
weighted to take into account the relative age of the fixed 
guideway segment(s) in operation. This could be based on 
similar data (a combination of vehicle revenue miles, fixed 
guideway directional route miles, and passenger miles), as now 
submitted to the FTA National Transit Database. I also believe 
that national funding should be tied to some criteria of local 
system funding support. Additionally, it is my belief that we 
need to strengthen the link between transit expansion funding 
approval and the effort demonstrated to maintain current 
assets. In the future, there should also be benchmarking and 
objective criteria to better enable the Congress and FTA to 
measure the program's effectiveness in meeting its intended 
purpose.

Q.2. During these difficult economic times, you are facing high 
ridership and continued capital and maintenance needs. Has the 
infusion of ARRA funds empowered you to undertake some projects 
which you would have otherwise put off? Could you describe how 
the everyday life of one of your typical customers has improved 
because of these added resources?

A.2. The infusion of ARRA funds has made a crucial difference 
in both MARTA's ability to continue to deliver basic levels of 
transit service to our customers, implement projects that 
represent critical investments in transportation 
infrastructure, and sustain jobs. MARTA has received a total of 
$87.8 million in ARRA funds to date, of which $45 million is 
being used to support ongoing preventive maintenance/operating 
costs. The most recent $25 million in ARRA funds received has 
staved off harmful service cuts that would have had a severe 
negative impact on many of our riders. Fifty-four percent (54 
percent) of our customers use MARTA service to go to work; and 
46 percent report that, without MARTA, they do not have other 
travel options. Without these funds, our agency would have been 
forced to make drastic service cuts that would have severely 
impacted our customers and increased our already staggering 
regional unemployment rate, which is currently over 10 percent.
    On the capital investment side, MARTA is using $42 million 
of our ARRA funds for specific projects focused on the 
modernization of critical life safety systems and state of good 
repair needs. These high priority capital projects include the 
upgrade and replacement of our systemwide fire protection 
system, and the procurement of new alternative fuel buses to 
replace aging vehicles that have exceeded their useful life. 
While these high priority projects, due to their critical 
nature, would still have gone forward even in the absence of 
Recovery Act funding, MARTA's use of ARRA funds for these 
projects has freed up other resources for other needed 
projects, which otherwise would have been deferred.
    Just this past week, we received notification of our 
receipt of a $10.8 million TIGGER grant for clean technologies 
which we will use to install solar canopies over the bus 
parking at one of our facilities. This will be the largest 
photovoltaic installation in Georgia, and will result in an 
annual savings of $160,000 in addition to significant clean air 
benefits.
    I greatly appreciate this opportunity to provide the 
Committee with this information. Please let me know should you 
have any further questions or if I can provide you with any 
additional information.
              Additional Material Supplied for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
